<html>
<title> - A REVIEW AND ANALYSIS OF THE PROPOSED $400 MILLION LOS ANGELES, CALIFORNIA, FEDERAL COURTHOUSE PROJECT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 A REVIEW AND ANALYSIS OF THE PROPOSED
                 $400 MILLION LOS ANGELES, CALIFORNIA,
                       FEDERAL COURTHOUSE PROJECT

=======================================================================

                                (112-59)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
71-099                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                 7_____

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

                   JEFF DENHAM, California, Chairman
TIMOTHY V. JOHNSON, Illinois         ELEANOR HOLMES NORTON, District of 
ERIC A. ``RICK'' CRAWFORD,               Columbia
    Arkansas,                        HEATH SHULER, North Carolina
  Vice Chair                         MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      DONNA F. EDWARDS, Maryland
PATRICK MEEHAN, Pennsylvania         BOB FILNER, California
RICHARD L. HANNA, New York           NICK J. RAHALL II, West Virginia
CHARLES J. ``CHUCK'' FLEISCHMANN,      (Ex Officio)
    Tennessee
JOHN L. MICA, Florida (Ex Officio)

                                  (ii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Goldstein, Mark L., Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................     9
Morrow, Hon. Margaret M., District Judge, United States District 
  Court, Central District of California..........................     9
Peck, Robert A., Commissioner, Public Buildings Service, General 
  Services Administration........................................     9

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Goldstein, Mark L................................................    69
Morrow, Hon. Margaret M..........................................    87
Peck, Robert A...................................................    96

                       SUBMISSIONS FOR THE RECORD

Morrow, Hon. Margaret M., District Judge, United States District 
  Court, Central District of California:

        Memorandum from the United States Marshals Service for 
          the Central District of California to the Chief 
          District Judge which details security deficiencies of 
          the Spring Street Courthouse, November 2, 2011.........    11
        Assertion that the proposed housing plan for the district 
          court is consistent with Judicial Conference courtroom 
          sharing policies.......................................    28
        Assertion that consolidating the district court and 
          bankruptcy court in the Roybal Building would not be 
          cost-effective or practical............................    36
        Additional comments regarding the June 2010 Government 
          Accountability Office report...........................    43
        Additional comments regarding bankruptcy courtroom space.    47
Napolitano, Hon. Grace F., a Representative in Congress from the 
  State of California, request to submit letter in support of the 
  Los Angeles courthouse project signed by 19 Members of the 
  California delegation..........................................     6
Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
  District of Columbia, request to include letter from Hon. Jose 
  F. Serrano, a Representative in Congress from the State of New 
  York, November 3, 2011.........................................    60
Peck, Robert A., Commissioner, Public Buildings Service, General 
  Services Administration:

        Actual utilization of old courthouses in cities where new 
          ones have been built...................................    23
        Response to information request from Hon. Jeff Denham, a 
          Representative in Congress from the State of California    31
Slides 1-10 referenced during hearing............................   101

                        ADDITIONS TO THE RECORD

Correspondence in chronological order:

        Dan Mathews, staff member, Subcommittee on Economic 
          Development, Public Buildings, and Emergency 
          Management, memorandum regarding California border 
          station and courthouse GSA staff trip, to Hon. John L. 
          Mica, Ranking Republican, Committee on Transportation 
          and Infrastructure, April 23, 2009.....................   111
        Hon. Eleanor Holmes Norton, Chairwoman, and Hon. Mario 
          Diaz-Balart, Ranking Member, Subcommittee on Economic 
          Development, Public Buildings, and Emergency 
          Management, joint letter to President Barack Obama, 
          August 2, 2010.........................................   113
        Hon. Jeff Denham, Chairman, and Hon. Eleanor Holmes 
          Norton, Ranking Member, Subcommittee on Economic 
          Development, Public Buildings, and Emergency 
          Management, joint letter to the Hon. Martha Johnson, 
          Administrator, General Services Administration, October 
          21, 2011...............................................   118
Morrow, Hon. Margaret M., District Judge, United States District 
  Court, Central District of California:

        Cover letter to Hon. Jeff Denham, Chairman, and Hon. 
          Eleanor Holmes Norton, Ranking Member, Subcommittee on 
          Economic Development, Public Buildings, and Emergency 
          Management, requesting that supplementary materials be 
          included in the hearing record, November 22, 2011......   120
        Additional information and views of the Central District 
          of California on several questions posed by the 
          subcommittee members at the hearing....................   122
        Joint letter from Hon. David B. Sentelle, Chief Judge, 
          United States Court of Appeals for the District of 
          Columbia Circuit, and Hon. Royce C. Lamberth, Chief 
          Judge, United States District Court for the District of 
          Columbia, and chart that reflects space assignments in 
          the two buildings occupied by those courts, November 8, 
          2011...................................................   129
        Letter from Hon. Loretta A. Preska, Chief Judge, United 
          States District Court, Southern District of New York, 
          about the impact of courtroom sharing on that court, 
          November 22, 2011......................................   133
[GRAPHIC] [TIFF OMITTED] 71099.001

[GRAPHIC] [TIFF OMITTED] 71099.002

[GRAPHIC] [TIFF OMITTED] 71099.003

[GRAPHIC] [TIFF OMITTED] 71099.004

[GRAPHIC] [TIFF OMITTED] 71099.005

[GRAPHIC] [TIFF OMITTED] 71099.006

[GRAPHIC] [TIFF OMITTED] 71099.007

[GRAPHIC] [TIFF OMITTED] 71099.008

[GRAPHIC] [TIFF OMITTED] 71099.009

[GRAPHIC] [TIFF OMITTED] 71099.010

[GRAPHIC] [TIFF OMITTED] 71099.011

[GRAPHIC] [TIFF OMITTED] 71099.012



               A REVIEW AND ANALYSIS OF THE PROPOSED


                 $400 MILLION LOS ANGELES, CALIFORNIA,


                       FEDERAL COURTHOUSE PROJECT

                              ----------                              


                        FRIDAY, NOVEMBER 4, 2011

                  House of Representatives,
       Subcommittee on Economic Development, Public
               Buildings, and Emergency Management,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The Subcommittee on Economic Development, 
Public Buildings, and Emergency Management will come to order. 
We are going to be challenged this morning with a very 
aggressive floor calendar. So my goal is to get through opening 
testimony before the first round of votes. I know we have a 
number of questions. We will probably reserve those to try to 
get those through between the first and second series of votes.
    Let me first thank our witnesses for being with us today. 
The purpose of today's hearing is to review the latest GSA 
proposal for a new courthouse in Los Angeles, and to consider 
if the project is a wise use of taxpayer money given the well-
documented overbuilding in the courthouse program and the 
current fiscal crisis in our Government.
    Last Congress, at the request of the subcommittee, the GAO 
completed a review of the 33 courthouses constructed between 
2000 and 2010. What the GAO found was incredible. GSA built 
over 3.5 million square feet of courthouse space that we don't 
need at a cost of $800 million. As a result, the judiciary 
abandoned existing courthouses across the country and severely 
underutilized every new courthouse. The GAO identified three 
reasons for this waste: First, GSA built courthouses bigger 
than Congress authorized; second, the judiciary's 10-year 
projections of the number of judges were not worth the paper 
they were written on; and third, if the judges shared 
courtrooms we wouldn't need as much courtroom space as we have.
    As a result, the subcommittee sent a letter to the 
President indicating we would not authorize any new courthouses 
until there were significant reforms in the courthouse 
construction program. We also demanded the judiciary conduct a 
real courtroom utilization study so that a third party could 
figure out how many judges can share a courtroom, because 
without the data or analysis, it is very difficult for us to 
determine if these projects are a good idea or a waste of 
taxpayer dollars. So it is in this context the GSA and the 
judiciary want to resurrect the Los Angeles courthouse 
proposal.
    Over the last 11 years, the judiciary projected there would 
be somewhere between 72 and 81 judges in Los Angeles by 2011 or 
2014. The judiciary declared Los Angeles the number one 
judicial space emergency in the United States, and proposed a 
massive new courthouse. However, today we know the primary 
justification for a new L.A. courthouse is wrong. There are 
fewer judges in L.A. now than there were in 1997.
    Let's put up slide 1, please.
    Today, we have two buildings with 61 courtrooms and only 59 
judges.
    Put up the second slide.
    In 2004, they projected 81 judges, and today we have 59.
    It seems to me that the projections on which the judicial 
space emergency and the new courthouse were based never really 
materialized. I am also concerned the remaining funds are not 
near enough money to build the courthouse you are proposing. 
And we certainly don't want to see big cost overruns.
    In 2008, when GSA proposed an even smaller courthouse, the 
judges of the Central District of California unanimously 
rejected it, citing the GSA's cost estimates were unrealistic, 
and that the new plan would not address their capacity 
concerns. If there wasn't enough money to build a 414,000-
square-foot building in 2008, how is it possible to build a 
650,000-square-foot one today? And if the funds are sufficient, 
would there be enough money to convert the abandoned courtrooms 
in the Roybal or Spring Street Buildings? I am afraid that this 
will have to be--where GSA spends all of the money----
    Let's put up slide 3.
    Eighty-five courtrooms for fifty-nine judges, half of which 
should be shared courtrooms under the judiciary's own sharing 
policy. We have seen this before in at least seven other cities 
where new courthouses were built and the ones sit vacant as a 
burden to the taxpayer and eye sores to the community. To avoid 
this, I think GSA will have to ask for a lot more money.
    Slide 4, please.
    Over $700 million will be needed to build a new courthouse 
and convert the abandoned courtrooms into office space. Yet 
GSA's construction budget is zero. GSA has no money for other 
critical projects. A half a billion dollars for the Coast Guard 
headquarters is being constructed, but there is no money for a 
road to actually get to the building. Critical infrastructure 
work at the White House is being delayed indefinitely because 
the building fund is empty. So again, that is the reason to ask 
those couple of questions on how we are going to come up with 
the extra money on Spring Street and the Roybal Buildings and 
the third new courthouse for the amount of money that is 
already out there. At this time I feel like it is unwise to use 
taxpayer money to build a third L.A. courthouse.
    Before I close, I would like to raise one last point. 
Yesterday morning GAO briefed me on the judiciary's courtroom 
utilization study and the courtroom sharing models it developed 
with an outside expert. Among other things, the simulation 
company GAO used works with hospitals to determine how many 
operating rooms they need. Apparently hospitals don't have 
operating rooms for every single surgeon. It is far too 
expensive to do that. Yet hospital needs have an operating room 
available for emergencies. So GAO had the computer simulation 
modified to incorporate the judiciary's courtroom utilization 
data, and now it can figure out how many courtrooms you need, 
so there will always be a courtroom available. GAO ran this 
centralized sharing model for Los Angeles, and it appears all 
of the judges can fit in just the Roybal Building, no new 
courthouse would be needed, and Spring Street could be sold.
    I look forward to hearing from GSA and the U.S. courts 
today to understand their current proposal, its cost, and its 
justification. I also look forward to hearing from GAO.
    I now would like to recognize Ranking Member Norton from 
the District of Columbia for 5 minutes to make any opening 
statement she may have.
    Ms. Norton. Thank you very much, Mr. Chairman. I appreciate 
today's hearing on the status of the Los Angeles, California, 
Federal courthouse construction project, if you can call it 
still a project since it has sat in abeyance for half of my 
time in Congress, and of course its compliance with current 
courtroom sharing policies and the General Services 
Administration's current asset management strategy in Los 
Angeles.
    Today's hearing on the long-delayed Los Angeles courthouse 
has as its necessary context a Government Accountability report 
that this committee commissioned in 2008 to examine courthouse 
planning and construction, including management and costs. The 
GAO report, issued last year, contained astonishing findings of 
mismanagement by GSA and the judiciary, of the courthouse 
program, and documented wasted funds as well as space. GAO 
determined that the 33 courthouses constructed by the GSA since 
2000 included 3.56 million square feet of space above--3.56 
million square feet above the congressionally approved 
specifications, a frequent overestimation of the number of 
judges that courthouses would need to accommodate, and failure 
to implement courtroom sharing despite the committee's mandate. 
In essence, virtually every mandate of this committee has been 
routinely and systematically ignored by GSA and by the 
judiciary.
    The GAO found that the total value of the extra space was 
$835 million in construction costs and $51 million annually in 
rent and operating expenses. The GAO report confirmed what this 
subcommittee had indicated during almost 15 years of oversight 
of the courthouse program; namely, reducing the size of 
courthouses through more accurate projections of the number of 
future judges and using courthouse sharing could save the 
Federal Government significant amounts of money.
    Every courthouse authorized by this committee since 2007 
has required courtroom sharing and has restricted the use of 
projections of new judges. In fact, in some cases, as a result 
of reducing the number of courtrooms, we have been able to plan 
to move Federal agencies out of expensive long-term leases and 
into owned space.
    The Los Angeles courthouse was first approved by this 
committee in July 2000. The project's budget, originally 
supported by GSA, has ballooned over the past decade from $266 
million to almost $1 billion simply because of the refusal to 
build the courthouse as mandated by this committee and by the 
Congress of the United States.
    The most recent official action occurred in March 2008, 
when the GSA administrator wrote to the chief judges in 
California to propose constructing a scaled down, 400,000-
square-foot courthouse with 20 courtrooms and 20 chambers, in 
addition to renovating the Roybal Courthouse for $700 million. 
On March 26, 2008, the judges rejected GSA's proposal, 
requesting a larger courthouse with 36 courtrooms and 45 
chambers, which would have been significantly more expensive.
    It is as if this committee didn't matter. The judges say 
they reject the courthouse. I don't know what this subcommittee 
is supposed to do. But that is not the way it works up here. 
Although one of the judges' primary justifications for their 
request is the lack of security in the current Los Angeles 
courthouses, they rejected the GSA proposal that would have 
addressed the security concerns.
    This is the very same conversation we have long been having 
with GSA and the judiciary about sharing, projections of 
additional judges, and maximizing the use of existing assets. 
There are empty courtrooms across the country because of 
resistance to congressional directives to share courtrooms 
whenever possible. This subcommittee has been clear in its 
mandate that all new courthouse construction be reconsidered 
under the sharing guidelines. And the Los Angeles courthouse 
should be no exception.
    I emphasize that although we require courtroom sharing, we 
are also, and always have been, sensitive to issues of 
security, and will examine these concerns carefully today in an 
effort to make sure members of the judiciary are not at risk in 
carrying out their duties. The American taxpayer has no stomach 
for waste, especially for waste on new large courthouses where 
judges insist that they decide, not the taxpayers, the size of 
the courthouse and whether sharing will occur; and especially 
when vital Federal programs are being scaled down or 
eliminated.
    We intend to work with GSA and the judiciary to ensure that 
good asset management decisions are made in the courthouse 
program. We certainly appreciate the testimony of each of 
today's witnesses, and we welcome any thoughts and suggestions 
they may have. Thank you, Mr. Chairman.
    Mr. Denham. I ask unanimous consent that Mrs. Napolitano of 
California and Ms. Richardson of California, who are both 
members of the Transportation and Infrastructure Committee, be 
permitted to participate in today's committee hearing. Without 
objection, so ordered. Ms. Napolitano, you have an opening 
statement?
    Mrs. Napolitano. Yes, I do, Mr. Chair. Thank you very much, 
and Ranking Member Norton, for allowing me to participate. And 
I do ask unanimous consent to submit a letter signed by 19 
Members of the California delegation, including Senators Boxer 
and Feinstein, in support of the Los Angeles courthouse 
project, and also urging GSA to proceed immediately with 
construction of the project. For the record, without objection, 
unanimous consent to submit the letter for the record?
    Mr. Denham. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 71099.013
    
    [GRAPHIC] [TIFF OMITTED] 71099.014
    
    Mrs. Napolitano. Thank you. Mr. Chairman, I strongly 
support the Los Angeles County courthouse project. I live in 
Los Angeles County. The current Los Angeles County courthouse 
has been declared a space emergency by the Judiciary 
Conference, and continues to be its top priority for a new 
courthouse. This has been maybe what, a decade in the making? 
And I think it is time we remove all the obstacles and move 
forward, because they have complied with all the requirements 
that this subcommittee has imposed upon the Central District of 
California, which is the largest district in the Nation, 
covering seven counties and over 17 million people. The 
division serves four counties with a population of 13 million.
    This court has dramatically outgrown the existing Spring 
Street facility built in 1938. That is just 2 years after I was 
born. The court has been forced to divide its operations 
between this courthouse and the Edward R. Roybal Federal 
Building and the courthouse three blocks away. This split 
operation creates countless inefficiencies and critical 
security concerns. I am under the understanding that there are 
prisoners in orange uniforms traveling in the same areas that 
judges and other members of the courthouse are in transit to 
their offices.
    The new courthouse is necessary to accommodate an increase 
in the number of active and senior district judges, as well as 
magistrate judges from 59 to 65, and an increase in bankruptcy 
judges from 10 to 14 over the next decade. After a longstanding 
dispute over the size of this project, the judiciary and GSA 
have come to a cost-effective compromise. The building will 
have 24 courtrooms, 32 chambers. This is 17 courtrooms and 8 
chambers smaller than the authorized plan. The project has been 
fully funded, with no additional funding needed. The current 
market conditions in L.A. will allow the Government to maximize 
value in building the courthouse now. The local economy will be 
stimulated by infusion of funding and new jobs with a 
construction project of this size.
    The unemployment rate in the L.A. metropolitan area is 12.5 
percent. Most of that rate is attributed to the construction 
sector. So this project incorporates courtroom sharing 
policies, it incorporates the directives of this committee to 
maximize the use of the Roybal Building, and not to request any 
additional funding for the project.
    Mr. Chair, Ranking Member, I hope that we will support this 
project, and I yield back.
    Mr. Denham. Thank you. I would like to welcome again our 
witnesses here today, and just remind them we already have a 
vote underway. So we are going to try get through as much of 
the opening testimony as possible before we take a short 
recess.
    On our first and only panel today, we have the Honorable 
Margaret M. Morrow, a United States district judge, U.S. 
District Court, Central District of California. Welcome. And 
Mr. Robert Peck once again, commissioner, Public Buildings 
Service, General Services Administration. And Mr. Mark 
Goldstein, director of physical infrastructure, Government 
Accountability Office.
    I ask unanimous consent that our witnesses' full statements 
be included in the record. Without objection, so ordered. Since 
your written testimony has been made part of the record, the 
subcommittee would request that you limit your oral testimony 
to 5 minutes.

 TESTIMONY OF HON. MARGARET M. MORROW, DISTRICT JUDGE, UNITED 
 STATES DISTRICT COURT, CENTRAL DISTRICT OF CALIFORNIA; ROBERT 
   A. PECK, COMMISSIONER, PUBLIC BUILDINGS SERVICE, GENERAL 
   SERVICES ADMINISTRATION; AND MARK L. GOLDSTEIN, DIRECTOR, 
   PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Denham. Judge Morrow, you may proceed.
    Judge Morrow. Good morning, Chairman Denham, Ranking Member 
Norton, and Congresswoman Napolitano. I am Margaret Morrow, and 
I am a district judge in the Central District of California, 
resident in Los Angeles. I appreciate the opportunity to appear 
before this subcommittee today to discuss the Los Angeles 
courthouse project, which has been and remains the judiciary's 
number one courthouse priority.
    Over the past 18 months, the judiciary has worked closely 
with the General Services Administration at both the national 
and local levels to develop a plan for a functional and cost-
effective facility that will provide long-term, secure housing 
for the Los Angeles District Court and for the public that uses 
the building. As I will describe, the courthouse that is 
planned has 350,000 square feet less than the project that this 
committee considered in prior years. It has 17 fewer courtrooms 
and eight fewer chambers. The plan does not require any 
additional appropriations. It does not provide space for 
projected judgeships. And it includes courtroom sharing for 
senior and magistrate judges.
    The Central District of California is one of the largest 
and busiest courts in the Nation. It handles a high percentage 
of complex criminal cases involving drugs, murder, street 
gangs, prison gangs, and terrorism. The court currently 
operates in the Spring Street Courthouse and the Roybal Federal 
Building two blocks away. Active and senior district judges and 
magistrate judges have chambers and use courtrooms in both 
facilities. Between now and 2019, 14 judges will be eligible to 
take senior status. Nine of those will become eligible in the 
next 5 years. In addition, if the two judgeship bills currently 
pending before the Congress as S. 1032 and H.R. 2365 were to 
pass, the district would have nine new district judgeships.
    I want to emphasize, however, that despite the pendency of 
these bills, and consistent with the concerns that have been 
expressed by this subcommittee, by the full committee, and by 
the GAO in its June 2010 report, the project that the judiciary 
and GSA have developed does not include any space for projected 
judgeship positions.
    All those familiar with the existing facilities in Los 
Angeles agree that there are serious operational, 
infrastructure, and security concerns that must be addressed. 
The Spring Street facility was built in 1938. There are serious 
seismic problems with the building. The building is also 
riddled with asbestos, which makes improvements complicated and 
costly. Due to its age, the existing infrastructure does not 
support modern-day technology, and the building systems are old 
and need upgrades or replacement.
    In addition, the Spring Street location has many serious 
security issues that affect the safety of the public, parties, 
jurors, witnesses, and victims, as well as the safety of the 
marshals, court employees, and judges. It is critical to 
recognize that many of these problems cannot be resolved by 
modifying the building given its particular footprint. This is 
why it has always been anticipated that the court would vacate 
the Spring Street facility. Every day prisoners are brought 
into Spring Street in vans that are unloaded in the judges' 
parking garage. As a result, judges frequently encounter 
prisoners as they are being unloaded and moved into the 
building. Because there are many courtrooms that do not have 
adjacent cellblocks or any secure prisoner access, and because 
the secure prisoner corridor that serves the balance of the 
courtrooms is so small that it places both the marshals and the 
prisoners in danger, prisoners are often moved to the 
courtrooms through public corridors and elevators where they 
cross paths with parties, with jurors, with victims, and with 
witnesses.
    The United States Marshal for the Central District of 
California has written a letter dated November 2, 2011, which 
details these security deficiencies. And I would like to submit 
that letter for the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 71099.015
    
    [GRAPHIC] [TIFF OMITTED] 71099.016
    
    [GRAPHIC] [TIFF OMITTED] 71099.017
    
    [GRAPHIC] [TIFF OMITTED] 71099.018
    
    [GRAPHIC] [TIFF OMITTED] 71099.019
    
    Judge Morrow. Though GSA planned to award a contract to 
build a new courthouse in fiscal year 2006, due to 
unprecedented escalation of construction costs in Los Angeles 
at that time, the project budget exceeded the funds 
appropriated and authorized, and GSA withdrew its request for 
proposal due to lack of competition and inadequate funding. 
Since that time, the judiciary and GSA have devised a plan for 
a courthouse that is smaller than that actually proposed, that 
is cost-effective, functional, and safe, and that is responsive 
to congressional directives to maximize the use of the Roybal 
Building to the extent practicable, to share courtrooms, and to 
work within the funds that have already been appropriated for 
this project.
    The new plan will contain 24 district judge courtrooms and 
32 chambers, reduced space for the clerk of court and U.S. 
Marshals Service. The Roybal Building will continue to be used 
for courtrooms and chambers for senior judges who can't be 
accommodated in the new facility and for magistrate and 
bankruptcy judge courtrooms and chambers. The judiciary and GSA 
believe that they have found an efficient and cost-effective 
solution to the Los Angeles courts' housing problems that 
addresses congressional concerns and that will be safe for the 
public.
    I would be happy to take any questions you have.
    Mr. Denham. Thank you, Judge Morrow.
    Mr. Peck, you may proceed.
    Mr. Peck. Thank you, Mr. Chairman, Ranking Member Norton, 
and Congresswoman Napolitano. Thank you for inviting me here 
today to discuss the new Los Angeles courthouse project. And I 
would like to thank you also for continuing to support the 
administration's efforts to pass civilian property realignment 
legislation and improve our asset management.
    The Federal courts play a critical role in our Nation's 
democracy by ensuring fair and impartial administration of 
justice for all Americans. GSA is proud to build courthouses 
worthy of that role, and we have developed a strong partnership 
with the Federal judiciary to do so. Since the inception of our 
Design Excellence Program 16 years ago, GSA has developed a 
strong track record of delivering high-quality buildings that 
support the courts' unique needs, while enhancing the building 
surroundings. GSA and the courts have continually improved and 
refined the management and oversight of these projects.
    The judiciary has developed and implemented policies that 
require courtrooms to be shared among judges. The judiciary has 
also revised its estimates for projected future judgeships 
based on current data, reducing also their space requirements. 
GSA, likewise, has improved our management of the courthouse 
program and implemented strong space management controls. We 
ensure our courthouses are constructed within the budget and 
scope.
    I have to say I am concerned to hear continued reference to 
the GAO report on which we held a hearing last year and the 
conclusions of which I thought we discredited to a large 
extent. For example, in their report GAO applied the courts' 
revised sharing standards retroactively to completed projects 
and then claimed the space was overbuilt based on those later 
standards. GAO took incorrect measurements of our buildings, 
assuming high-ceiling spaces and atriums were in fact gross 
square footage of an asset that we somehow had to build, as if 
we were paying money to build empty high-ceiling space.
    But to move on, today's hearing focuses on the Los Angeles 
courthouse. Due to security deficiencies in the existing 
buildings and courtrooms that do not meet the courts' space 
needs or functional requirements, the L.A. courthouse has been 
the courts' number one priority for the last decade.
    Between fiscal years 2001 and 2005, the project received 
appropriations and was fully authorized. However, the project 
could not move forward for several reasons, including 
construction cost escalations and programmatic changes. 
Congress has made clear on numerous occasions that GSA should 
work with the courts to develop a viable solution for the 
project within the funding already appropriated.
    The courts and GSA have worked closely over the last couple 
of years to develop a feasible solution for a smaller district 
courthouse that supports the judiciary and their mission needs, 
providing secure courtrooms and chambers. GSA and the courts 
have incorporated the sharing guidelines. We have eliminated 
projected judgeships and developed a solution to build this 
courthouse within the latest management guidelines and using 
lessons learned over the past several years.
    We now have a plan to deliver this facility within the 
current appropriation and authorization. This proposal includes 
24 district courtrooms and 32 chambers in the new courthouse, 
totaling approximately 650,000 gross square feet of space. This 
project is a worthwhile investment that will enable GSA to 
improve the security and meet the functional needs of the court 
while taking advantage of the unfortunate downturn in the 
market to deliver the project within the current appropriation 
and to create thousands of construction jobs in a hard-hit 
industry.
    GSA is ready to move forward with this project. We already 
own and have cleared the site and are ready to issue a contract 
solicitation. The new courthouse, with the existing Edward R. 
Roybal Federal Building and Courthouse, will meet the courts' 
requirements for 49 courtrooms. That includes district, 
magistrate, and bankruptcy courtrooms. This project will 
increase space efficiency and consolidate court functions.
    Moving forward, GSA will assess the potential reuse of the 
Spring Street facility and the possibility of modernizing it to 
accommodate executive branch agencies who are currently housed 
in over 1 million square feet of leased space in Los Angeles.
    In conclusion, the L.A. courthouse project has idled far 
too long. GSA and the courts now have a plan that can be 
completed within the current appropriation, mobilize this 
funding to put people back to work, and help the courts meet 
their mission needs. GSA is ready to move forward with this 
project, providing the courts with a secure state-of-the-art 
courthouse, helping improve court functions and services, while 
keeping tenants and the visiting public safe. This project is 
not only important to GSA and the courts, but also to the 
congressional appropriations committees who have urged GSA to 
proceed with this construction over several years now.
    Thank you for inviting me to appear before you today. I 
appreciate the opportunity to discuss our management of the 
courthouse program and to describe the new path forward for the 
Los Angeles courthouse, and I welcome your questions. Thank 
you.
    Mr. Denham. Thank you, Mr. Peck. Thank you, Judge Morrow, 
for your opening testimony. We are going to break at this time 
for an estimated 15 minutes to vote, and then we will begin 
back immediately with Mr. Goldstein's testimony.
    [Recess.]
    Mr. Denham. The committee will reconvene back with opening 
testimony from Mr. Goldstein. You may proceed.
    Mr. Goldstein. Thank you. Good morning, Mr. Chairman, 
Ranking Member Norton, and members of the subcommittee. We are 
pleased to be here today to discuss our recent work on Federal 
courthouse construction issues and on the L.A. courthouse in 
particular.
    In 2000, as part of a multibillion-dollar courthouse 
construction initiative, the judiciary requested and the 
General Services Administration proposed building a new 
courthouse in Los Angeles to increase security, efficiency, and 
space. But construction never began. About $400 million was 
appropriated for the project.
    For this testimony, GAO was asked to report on the status 
of the courthouse project, challenges GAO has identified 
affecting Federal courthouses nationwide, and the extent to 
which these challenges are applicable to the L.A. courthouse 
project. This testimony is based on GAO's prior work on Federal 
courthouses, much of it for this committee, during which GAO 
analyzed courthouse planning and use data, visited courthouses, 
modeled courtroom-sharing scenarios, and interviewed judges, 
GSA officials, and others.
    GAO reported in 2008 that GSA had spent about $33 million 
on design and site preparations for a new 41-courtroom 
courthouse, leaving about $366 million available for 
construction. However, project delays, disagreements between 
GSA and the judiciary about what to build, unforeseen cost 
escalation, and low contractor interest had caused GSA to 
cancel the project in 2006 before any construction took place. 
GSA later identified other options for housing the L.A. court, 
including constructing a smaller, new courthouse or using the 
existing courthouses, the Spring Street Courthouse and the 
Roybal Federal Building and Courthouse.
    As GAO also reported, the estimated cost of a new 
courthouse option as of 2008 was over $1.1 billion, 
significantly higher than the appropriation. All the other 
options were rejected by the courts because they believed that 
GSA underestimated the costs and created overly optimistic 
project schedules that they feared could not be met.
    Finally, in a 2008 letter to the GSA signed by Judge 
Morrow, the L.A. court unanimously opposed a new 20-courtroom 
building, stating in part that the remaining appropriated funds 
were not adequate to construct a facility of this size. This 
situation has essentially been deadlocked ever since.
    The challenges that GAO has identified in recent reports on 
Federal courthouses include increasing rent and extra 
operating, maintenance, and construction costs stemming from 
courthouses being built larger than necessary. For example, in 
2004 the judiciary requested a $483 million permanent annual 
exemption from rent payments to GSA due to difficulties paying 
for its increasing rent costs. GAO found in 2006 that these 
increasing rent costs were primarily due to increases in total 
courthouse space. And in 2010, GAO reported that more than a 
quarter of the new space in recently constructed courthouses 
was unneeded.
    Specifically, in the 33 Federal courthouses completed since 
2000, GAO found 3.56 million square feet of excess space. This 
extra space is a result of courthouses exceeding the 
congressionally authorized size, the number of judges in the 
courthouses being overestimated, and not planning for judges to 
share courtrooms. In total, the extra space GAO identified is 
equal in square footage to about nine average-size courthouses. 
The estimated costs to construct this extra space, when 
adjusted to 2010 dollars, is $835 million, and the estimated 
annual costs to rent, operate, and maintain it is $51 million.
    At the time of that report, GAO recommended that GSA ensure 
that new courthouses are constructed within their authorized 
size, that the Judicial Conference of the United States retain 
caseload projections to improve the accuracy of its 10-year 
judge planning cycles, and that the Conference establish and 
use courtroom-sharing policies based on scheduling and use 
data. GSA and the judiciary agreed with most of the 
recommendations, but expressed concerns with our methodologies 
and key findings.
    Mr. Chairman, it is quite clear that each of the challenges 
GAO identified related to unnecessary space in courthouses 
completed since 2000 is applicable to L.A. First, as GAO 
reported in 2008, GSA designed the L.A. courthouse with 13 more 
courtrooms than congressionally authorized, which would have 
added more than 200,000 square feet of space to the project 
without legislative approval. This increase in size led to cost 
increases and delays.
    Second, in 2004, GAO found the proposed courthouse was 
designed to provide courtrooms to accommodate the judiciary's 
estimate of 61 district and magistrate judges in the L.A. court 
by 2011, which as of October 2011 exceeds the actual number of 
such judges by 14. This disparity calls into question the space 
assumptions on which the original proposals were based.
    Third, the L.A. court was planning for less courtroom 
sharing than is possible. While in 2008 the judiciary favored 
an option proposed by GSA that provided for some sharing by 
senior judges, according to our 2010 analysis there is enough 
unscheduled time in courtrooms for three senior judges to share 
one courtroom, two magistrate judges to share one courtroom, 
and three district judges to share two courtrooms. In 2011, the 
judiciary also approved sharing for bankruptcy judges.
    Additional courtroom sharing could reduce the number of 
additional courtrooms needed for the L.A. courthouse, thereby 
increasing the potential options for housing the L.A. court.
    Mr. Chairman, Ranking Member Norton, this concludes my 
testimony. We are pleased to answer any questions you may have. 
Thank you.
    Mr. Denham. Thank you, Mr. Goldstein.
    GSA has taken exception to some of the methodology you used 
such as applying sharing models retroactively, incorrect 
measurements. What is your response?
    Mr. Goldstein. Mr. Chairman, I think it is disappointing. 
We have discussed this issue with Mr. Peck on a couple of 
occasions. The comptroller general has even sent a letter to 
GSA on these issues. So I have a couple quick comments I will 
make.
    Regarding sharing, it is the role of GAO to look at 
budgetary consequences of Government policies. And it has been 
the policy of the courts for the most part to not share 
courtrooms. That policy has had a clear impact on increased and 
potentially wasteful spending of tax dollars, as our report 
showed. This is something the courts should have analyzed 
themselves so that the lawmakers could have a better 
understanding of the costs and benefits of this policy.
    On gross square footage, Mr. Peck says that we measured 
incorrectly. GAO did not measure anything. Let me repeat that: 
GAO did not measure anything. We relied on GSA measurements and 
on GSA blueprints.
    Mr. Peck says that we incorrectly included atriums. This 
policy is GSA's policy. It clearly states that atriums are 
included in gross square footage. That policy has been in place 
for the entire period of construction that we looked at. 
Regarding atrium costs, we did not impute the same construction 
costs to atriums as other spaces. We averaged the costs of all 
spaces, including very expensive courtroom space and less 
expensive atrium space. Our report notes that atrium space 
costs less to construct and maintain than other spaces. We 
asked both GSA and outside experts, including BOMA, about the 
suitability of this methodology. And all of them, including 
GSA, supported the approach.
    And then finally, GAO applied appropriate generally 
accepted inflation factors to account for the cost growth in 
the construction market. And again, we validated this approach 
with both GSA and outside experts. Thank you, Mr. Chairman.
    Mr. Denham. And Mr. Peck, I would ask you for a brief 
response. The prospectus that we see, especially in this case, 
the prospectus did not define the same square footage.
    Real quickly, the one that I am looking at here, second-
floor atrium area, even the roof line on the fourth floor, you 
know, we have done basic square footages for my office. You 
know, when we calculate square footage per employee in my 
office we consider the hallways, the restrooms, the meeting 
areas, every area. So when we get a prospectus, we are looking 
at the same thing. We are approving a building. Build a 
building, keep it within this cost, and meet the parameters. So 
the atrium I would assume would be in the same square footage 
as everything else that is in the building. We are leaving it 
up to you and the architects, but we expect the square footage 
to be maintained the same, which hasn't been done on every 
building.
    Mr. Peck. Right. I believe--so if you want my answer, it 
gets complicated, because there are different ways of measuring 
space in the real estate industry. But GAO has basically 
fundamentally confused cubic square footage and linear square 
footage. For example, if you were to take the square footage of 
this room and you measure the walls from wall to wall in a 
rectangle, you get one measure. If you then multiply it----
    Mr. Denham. Let me stop you and ask you real quick, because 
the study that I am looking at here on atriums and closed 
courtyards and lobbies comes from your GSA Public Buildings 
Service National Building Space Assignment Policy, and it has 
that same square footage in there.
    Mr. Peck. Yeah, the square footage. But what I am saying is 
they count a five-story atrium as if we had built five floors. 
And then he multiplies, as he just said, he multiplies the cost 
of that atrium by the average square footage cost in the 
building. And what I am objecting to, more than the measurement 
of the space, is multiplying by a dollar number to come up with 
an inflated and erroneous estimate of how much it costs us to 
build that space. You know, the committee's authorizations and 
the appropriations that we get give us a dollar budget for a 
building. And that is what we fundamentally focus on. For Mr. 
Goldstein and GAO to suggest that there was $800-some million 
of overbuilding in the courthouse program, believe me, we would 
have known that and they would have known that a long time 
before he did that study.
    Mr. Denham. But the problem is you come back to Congress 
and ask for more money, and you build a building after the fact 
that is much bigger than what was originally anticipated in the 
prospectus.
    Before you answer, I am going to bring this down to you 
because in the gross square footage in your policy book it says 
B through 3 are all included in the gross square footage. So it 
is in your calculation. We will come back to that. I want to 
make sure you have a copy of that.
    Mr. Goldstein, frequently GSA would request funds to 
construct a new courthouse or annex to supplement, not replace, 
the existing courthouse. However, it seems when a new 
courthouse is built, the old one is either abandoned or 
minimally used.
    Can you put up slide number 6?
    These courthouses right here, were these abandoned 
courthouses included in your 3.5 million square feet of extra 
GAO identified?
    Mr. Goldstein. Some of them were and some of them were not, 
Mr. Chairman. We had visited over a number of years many of 
these buildings for a lot of our different reports. Some of 
them we identified as extra space in our rents report back in 
2006. And some of them are included in the report that we 
issued last year. So it is a combination, sir.
    Mr. Denham. Which ones, out of these courthouses, all of 
which have abandoned courthouses in major cities where we are 
leasing huge amounts of space, which of these courthouses have 
you considered in the 3.5 million square feet of wasted or 
unneeded space?
    Mr. Goldstein. I believe we included Miami, Washington, 
Brooklyn, Tucson. For this particular report, we did not 
include Seattle or Richmond. But they were part of our study 
when we looked at the reasons why space and rent increased in 
the courthouses several years ago.
    Mr. Denham. And Mr. Peck, on this same list, how many of 
these vacant or severely underutilized courthouses are on GSA's 
excess list or disposal list?
    Mr. Peck. Mr. Chairman, I will have to provide that for the 
record. I don't know. The only one here at the moment that I 
have had conversations with people in GSA about recently is the 
Dyer Courthouse in Miami, which is vacant and which I am 
determined to move toward excess and surplus.
    Mr. Denham. Is it on the surplus list today?
    Mr. Peck. It is not today; no, sir.
    Mr. Denham. OK. It is my understanding that none of these 
courthouses are considered in the 14,000 excess properties that 
we have today. And again, these are all hundreds of millions of 
dollars of real estate that could be sold, or space that could 
be leased; or, at a bare minimum, we could be doing the same 
thing that we have done with the Old Post Office.
    Mr. Peck. Mr. Chairman, as you and I are in violent 
agreement about, there are assets that we need to move faster 
to excess and surplus in our inventory. I would have to--I 
would love to provide for the record where we are on all of 
these properties, because as I said, I am only familiar with 
one.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 71099.020
    
    Mr. Denham. Thank you. And if you could provide other 
properties that might be in this same type of instance. We 
tried to pick out a few that we knew of. But obviously, your 
list would probably be much more inclusive than what we have.
    But let me just point out, Mr. Peck, let's put up slide 
number 8.
    Just the Miami courthouse that you just mentioned, I think 
there are some similarities here with the situation that we are 
seeing in L.A., the Dyer Federal Building.
    Let's put up 9 real quick.
    This is a beautiful courthouse, beautiful courtrooms, 
amazing historical building. It is empty. I called down there 
yesterday to see who was in the building. Apparently there is a 
security guard around there somewhere. We were unable to find 
him yesterday. So we are going to send some people out there 
just to see exactly who is there. But I am amazed to find out 
that we have got an abandoned, beautiful courtroom, entire 
facility here. It has been vacant ever since the new courthouse 
opened. I was amazed to find out, when I asked the question 
whether it was on the excess list, we have it listed as mission 
critical. So I want to make sure this doesn't end up like the 
Old Post Office that sits for two decades, and then it takes a 
congressional order to actually get the problem moved forward. 
Here you have got an amazing piece of property in an area where 
we are leasing a huge amount of space, same as L.A., and yet we 
have got this vacant.
    Mr. Peck. First of all, in L.A. we have not yet built a new 
courthouse. So it is a little premature to describe the Spring 
Street Courthouse as underutilized, because it is utilized at 
the moment. But as I said in my testimony and will be prepared 
to brief you more, when we build the new Los Angeles courthouse 
we will be prepared, we will take a look at where we are on 
Spring Street. And we are going to look at one of two things. 
One, we will either find that we can efficiently retrofit the 
building and move Federal agencies out of leased space in Los 
Angeles and into that building, or we will declare it surplus 
and get rid of it.
    Mr. Denham. Old Post Office we spend, what, $6.5 million a 
year in maintenance costs?
    Mr. Peck. I don't think it was $6.5 million in maintenance 
costs. I think we were losing a couple million dollars a year 
between what we got in rent and what we were maintaining.
    But Mr. Chairman, may I just say the Old Post Office is a 
little more complicated. And I want to report to you something. 
One is that the building itself, the office part of the 
building is in fact fully occupied. Not terribly well utilized. 
And I agreed, when I was at GSA before, that we ought to get it 
out. And can I just say that we have put out an RFP----
    Mr. Denham. I am just using the Old Post Office as an 
example, because we have exhausted that as an example here in 
this. We are all very, very familiar with that one property. 
This property here we spent----
    Mr. Peck. I am trying to declare victory, Mr. Chairman.
    Mr. Denham. We spend $1.2 million a year to operate this 
abandoned building. So again, this is something we are looking 
at. We want to make sure that the Spring Street Building 
doesn't end up in the same type scenario. If we are able to do 
courtroom sharing, we would want to make sure that we move or 
utilize that property as well.
    At this time my time has expired. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    You know, Mr. Peck, it is routine for Federal agencies to 
attack the investigator. Everybody does it. Nobody likes when 
GSA does a report and says what they don't want GSA to say. But 
in essence, you have attacked the subcommittee because you said 
that you thought that the report had been discredited by your 
testimony. Do you really believe that the GAO report was 
discredited when 33 courthouses were constructed above the 
specifications of this subcommittee without your ever coming 
back to the subcommittee to get new specifications? Where you 
have allowed frequent overestimation of the number of judges? 
And where, as the chairman has just shown, there are empty 
courthouses and empty courtrooms?
    I mean, it bothers me if you think that the report has been 
discredited rather than that the GSA has been discredited.
    Mr. Peck. I said, as Mr. Goldstein noted, we took exception 
to the methodology. We had this out last--we discussed this 
last year.
    Ms. Norton. My time is limited, the chairman has already 
indicated. And your notion of--if you believe that cubic--there 
is something called cubic feet and square feet--then it was 
your obligation to come to this committee to indicate that. And 
I have been on this committee for 20 years. I have never seen 
you come back to this committee and say to the committee, we 
have new specifications that we need.
    Now, I was at the Prettyman Courthouse, a courthouse I 
supported. I was at the Prettyman Courthouse just the night 
before last. What a beautiful courthouse, the Prettyman 
Courthouse is.
    Let me ask you, Mr. Peck, do you believe that this 
committee thought that in building the Prettyman Annex that the 
judges would completely abandon the existing courthouse and 
that there would be almost nothing happening in the existing 
courthouse? Do you believe that this committee believed that 
when it authorized an annex to the Prettyman Courthouse here in 
the District of Columbia? And how do you justify the fact that 
that courthouse is sitting in the middle of Washington as the 
major courthouse for the Federal courts in our city, and nobody 
is using a perfectly beautiful courthouse?
    And instead, when the judges saw there was some brand-new 
courtrooms, they just all scooted over to the new courtrooms, 
leaving a perfectly usable courthouse without any activity 
occurring in it.
    Mr. Peck. Ms. Norton, I am not sufficiently familiar with 
the current activities in the Prettyman Courthouse to answer 
your question. I don't know what the----
    Ms. Norton. I submit it as one I am familiar with, which 
illustrates my impatience with--your impatience with the GAO 
report. Because it just says to me, Mr. Chairman, since he 
thinks he is discredited, he is not going to follow it.
    Mr. Peck. Ms. Norton, I should note, just so I can respond, 
we agreed last year when we had the hearing on the GAO report, 
we said two things. One, is it in the years previous? And in 
all the years in which the prospectus system has been in 
effect, GSA and the committee have had the--have taken the 
position that when the costs of a project went up by a certain 
amount, GSA came back. Not when the square footage went up, 
because the square footage can sometimes increase within a 
budget. What we did agree to last year, I want to remind you, 
is that we----
    Ms. Norton. You don't have to remind me. I am aware of it, 
and I appreciate the practice has been changed. And the 
practice better have been changed. I don't think you were doing 
us any favor, Mr. Peck. It seems to me that was the 
professional thing to do. And that is what any agency ought do 
when it goes above what has been authorized. I mean that is 
just par for the course.
    But let me ask you what you also agreed to. After the last 
hearing, GSA, you said you would go back to examine the GAO 
modeling, and that you would try to come up with a consensus 
recommendation that three active district court judges can 
share two courtrooms, or three senior district court judges 
could share one courtroom.
    Let me ask you: Have those meetings occurred and has there 
been any consensus reached?
    Mr. Peck. We have discussions all the time with the courts 
about----
    Ms. Norton. I am going to be very specific in my 
questioning. Have you met with Mr. Peck with respect to the 
issue I just described, the three-to-two and the senior judges, 
three senior judges to one courtroom?
    Mr. Goldstein. No, ma'am, there has been no discussion 
about the model.
    Ms. Norton. So meeting with people all the time is not 
responsive to my question.
    Mr. Peck. I said we were meeting with the courts.
    Ms. Norton. Because in your mind the report is discredited, 
even though when the report was--when the report was revealed 
here, the committee was of a different mind. It appears that 
you have not even done what you agreed to do when you testified 
before this committee.
    Let me ask you, at our last hearing, for example, you 
agreed to study the Southern District of New York and its 
sharing practices involving active judges. Now, have you 
studied it? That is a real-time example. And are those sharing 
practices reflected in the plans for sharing in the L.A. 
courthouse proposal?
    Mr. Peck. The sharing practice reflected in the L.A. 
courthouse proposal is the sharing practice that was adopted by 
the Judicial Conference of the United States. We are following 
their sharing practice in this proposal.
    Ms. Norton. Not the sharing practice that was in the GAO 
report.
    Mr. Peck. No, ma'am.
    Ms. Norton. So the Judicial Conference of the United States 
controls how taxpayer money is going to be spent for 
courthouses.
    Mr. Peck. Ms. Norton, for many years, and you know I have 
done this before, we have had lots of conversations with the 
courts about their sharing practices. And the courts have 
changed their sharing practices over the years. And in this 
case we have in our program on the courthouses followed the 
judiciary's sharing practices. That is correct.
    Ms. Norton. Mr. Peck, this is what I mean. You follow the 
judiciary instead of this committee. Now, this committee was 
very impressed with the GAO report. And that was before we got 
in the fix we are in now. Imagine this committee going and 
saying to our colleagues, we ought not be doing sharing with 
courthouses, even though your constituents are sharing where 
they live these days. They are sharing food stamps these days. 
Imagine how we feel about courthouses not sharing.
    Let me ask, Judge Morrow, is sharing--does your testimony 
involve courtroom sharing for active judges? And would you 
describe how that would occur?
    Judge Morrow. The proposed plan does not presently include 
any sharing for active judges. It does incorporate the two-to-
one courtroom sharing ratio for both magistrate judges and 
senior judges. And I should note that because this is probably 
the last building that will ever be built in Los Angeles, over 
time it is going to require active judge sharing as well, 
because there won't be any other space.
[GRAPHIC] [TIFF OMITTED] 71099.021

    Ms. Norton. You betcha, Judge Morrow. You betcha it is 
going to require it.
    Let me ask Mr. Goldstein. Mr. Goldstein, you indicated that 
using the modeling practices that you vetted with outside 
experts that it was possible for 3 district court judges to 
share 2 courtrooms, and that even in courthouses with more than 
10 courtrooms there could be even more sharing. Do you have any 
reason to believe that the L.A. courthouse, which would involve 
no sharing by active judges, should be an exception that should 
be granted by the Congress of the United States?
    Mr. Goldstein. I wouldn't see a reason why, ma'am. In fact, 
as you know, the judiciary's data, which is what we based our 
models on, showed that at the highest level--which is the 
active district judges--that judges are only using their courts 
for court-related duties 2 hours a day. A third hour is used 
for tours and bar groups and things like that. The fourth hour 
is used for events that have been scheduled but canceled or 
postponed, and the other 4 hours a day the lights are out. For 
senior judges and for magistrate judges it is even less.
    And that is why we developed the model. We did not, you 
must recall, tell the judiciary that they should use our model. 
We simply encouraged them to develop their own process to do 
this and to develop their own assumptions. But they have never 
done that.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Denham. Mr. Goldstein, on that same line of 
questioning, your current model shows about 1.5 to 2 hours 
courtroom use per judge per courtroom?
    Mr. Goldstein. For a district judge's courtroom it shows--
this is the judiciary's own data that they did based on their 
studies several years ago, the Federal Judicial Center--it 
shows that the courtrooms are used for court-related duties 2 
hours a day. They are used about an hour a day for senior 
judges, and slightly more than an hour a day for magistrate 
judges for actual court responsibilities.
    Mr. Denham. Put up slide 10.
    Mr. Peck, here is New York City, the Daniel Patrick 
Moynihan Building, Thurgood Marshall Building. You can see 
again the Patrick Moynihan Building in the background of the 
Thurgood Marshall Building. Are we running into any problems 
there right now with courtroom capacity?
    Mr. Peck. In the Moynihan Building?
    Mr. Denham. Well, there is only one that is being used 
today.
    Mr. Peck. Correct. Thurgood Marshall is under renovation.
    Mr. Denham. Correct.
    Mr. Peck. Not that I am aware of.
    Mr. Denham. OK. So we are renovating the Thurgood Marshall 
Building, which is vacant right now during renovation. All of 
the courtrooms are now being fully--or all the judges are fully 
into the Daniel Patrick Moynihan Building. Once the renovation 
is done in Thurgood Marshall, what is going to happen between 
the two buildings?
    Mr. Peck. The Thurgood Marshall, if I remember correctly, 
and I would ask my staff to correct me, is mostly the appellate 
court for the Second District. The Moynihan Building has taken 
some of the--we have moved some of the chambers of the judges 
from the Thurgood Marshall into the Moynihan Building, if I 
remember the whole scheme correctly.
    Mr. Denham. Mr. Goldstein, do we have any utilization 
problems in the Daniel Patrick Moynihan Building to your 
knowledge?
    Mr. Goldstein. Not that I am aware of, sir.
    Mr. Denham. Do you know what the courtroom usage is in 
those buildings?
    Mr. Goldstein. I am sorry, sir?
    Mr. Denham. Courtroom usage right now, hours per day per 
courtroom?
    Mr. Goldstein. We don't know for that particular one. We 
can get back to you. We can take a look.
    Mr. Denham. Do you have the current cost-sharing ratio on 
that building?
    Mr. Goldstein. We have just at this point with me today, 
just the general ratios.
    Mr. Peck. And Mr. Chairman, the Moynihan Building was built 
before there was any court sharing at all, so it was built to a 
different standard; a different standard, I just say again, 
than we are going to use in the Los Angeles courthouse, the new 
building.
    Mr. Denham. I think these are two good comparisons between 
the Miami building where you have got the Dyer Building that is 
sitting vacant and not even on the excess property list--which 
I would consider that similar to Spring Street--and here, where 
you have completely shut down one huge building, moved 
everybody into the second building, and actually have great 
security and courtroom usage.
    Mr. Goldstein, when the renovations to the Marshall 
Courthouse are complete, what do you think the reutilization 
rate is going to be on this building?
    Mr. Goldstein. Well, you know, I don't know exactly, sir, 
but it is interesting because, you know, as you know, all of 
the judges moved into Pearl Street while that renovation was 
going on. The Federal Judicial Center examined this several 
years ago and found that the judges were doing quite well, 
actually, in their sharing; that almost all of them said that 
it had gone very well. And the people who were involved in 
scheduling said that there were no issues and that no trials 
had been postponed; that anytime they needed a hearing room, 
one was obtained. So it seems to me that there may not be a 
huge need for them to go back into the other building if 
sharing is indeed working already.
    Mr. Denham. So regardless of whether it was designed for 
that or not, it is happening today, it is working today, you 
have got everybody in one building. How many cases did you say 
have been lost or suspended?
    Mr. Goldstein. None.
    Mr. Denham. None? No problems that you have heard of?
    Mr. Goldstein. According to the judiciary itself and their 
report.
    Mr. Denham. I am looking forward to going to L.A. and 
seeing the Spring Street and the Roybal Buildings next week to 
see if we have got a similar-type scenario.
    Mr. Peck, I wanted to go back to something you said when 
answering Ms. Norton's question. When we look at a prospectus, 
we look at both the scope and the money. And it is my 
understanding you are no longer looking at both of those 
issues?
    Mr. Peck. No. I said that principally over the many years 
that the prospectus system has been in effect, most of the 
focus has been on containing costs. Of course the scope is 
looked at, too. But with respect to coming back when a project 
gets underway, we have come back when there was a money issue. 
And I am saying once the project has been authorized and 
appropriated and the project gets underway, we have come back 
for a prospectus when the costs exceeded the amount that was--
that had been appropriated by more than 10 percent.
    Mr. Denham. So when it has been exceeded?
    Mr. Peck. When it has been exceeded by more than 10 
percent. Because our rule with the Appropriations Committee is 
that we can escalate the cost on a project up to 10 percent 
without going back to them. But if the cost escalation does 
exceed that, we have to go back.
    Mr. Denham. Have you ever gone above 10 percent and not 
come back to this committee?
    Mr. Peck. I don't think so. But I would have to check.
    [Supplementary information submitted for the record by the 
General Services Administration follows:]

        GSA has a longstanding practice of requiring multiple 
        levels of reviews before exercising our authority to 
        escalate projects up to 10 percent of the approved 
        limits. After reviewing 5 years of internal 
        escalations, we did not find any instances where we 
        exceeded the 10 percent without congressional approval. 
        To the best of our knowledge we have not exceeded our 
        appropriations for projects by 10 percent without 
        approval from the committees, as stated and allowed in 
        our appropriation language.

    Mr. Denham. I am going to double-check that, because I have 
heard differently.
    Mr. Peck. On cost. On cost.
    Mr. Denham. Well, on cost, yes. You should be coming back 
on scope or cost.
    Mr. Peck. Right. Right.
    Mr. Denham. If you are drastically changing a building that 
has been appropriated and been approved by this committee, if 
the scope is drastically changed and you went from 50 
courtrooms to 20 courtrooms, I would expect you to come back. 
Under the law, under Title 40, you have to come back if it is 
10 percent. So that is something I certainly want to look at 
and make sure it hasn't been happening across the board. But 
you are going from--you know, I will tell you, if I was running 
a business that way and I waited until I was over 10 percent, 
and then I went back to the banks after I got 20 or 30 or 40 
percent over, I would be out of business.
    Mr. Peck. Mr. Chairman----
    Mr. Denham. You are waiting until----
    Mr. Peck. Mr. Chairman, I am simply----
    Mr. Denham. When you have spent 90 percent of the money----
    Mr. Peck. Mr. Chairman, I am simply reflecting what the law 
requires. I am not telling you what my personal predilection 
would be or how I would do it if I ran a business. I am just 
saying that we are required by law, if we exceed an 
appropriation by 10 percent, to come back for notification to 
the Appropriations Committee and approval to go forward.
    Mr. Denham. And under law you are required to do that. My 
concern is that you are not. My concern is that you are waiting 
until 20 or 30 or 40 percent. And then at that point Congress 
is under a real bind to say, Do we finish the project? Do we 
reappropriate new money or not?
    My concern would be when you get to 90 percent and you 
realize something has changed. The requirement has changed. The 
scope has changed. It is going to cost more money. The costs 
went through the roof. Maybe steel has, the pricing has changed 
way beyond what your budget would have ever imagined. You get 
to 90 percent, you realize you are going to have some big cost 
overruns, I would expect you to come back to Congress then, not 
when you get to 110 or 115 or 120 percent of the cost.
    Mr. Peck. Mr. Chairman, I will be happy to go back and see 
if there have been instances where we have not come back when 
we exceeded the 10 percent, number one. And number two, I will 
certainly submit to you that I don't--it doesn't mean that we 
are at 110 percent when we come back for approval.
    My experience in the times when I have seen this happen has 
been that when we think we are going to exceed by--I think we 
are talking about just what you are talking about, when we 
reach 90 percent or 80 percent or 50 percent for that matter, 
and don't think we are going to be able to do it within the 
budget, I believe we have come back to the committees and said, 
OK, we are going to need more money. And by the way, we have to 
tell the Congress a source for the funds, which we are required 
to find savings from other projects to apply to a project when 
we do go overboard.
    But I am just saying that is--I want to assure you that we 
agreed last year, and we will continue to provide if we 
increase the scope, including square footage of a project by 10 
percent, we will come back and inform you.
    Mr. Denham. Have you come back to the Congress on this 
project?
    Mr. Peck. On Los Angeles?
    Mr. Denham. The L.A. courthouse.
    Mr. Peck. On the L.A. courthouse we have come back to the 
Congress a couple of times before.
    Mr. Denham. And the scope has definitely changed on this 
project several times.
    Mr. Peck. Yes, sir.
    Mr. Denham. And at one point the justification was because 
we needed--we were going to have a huge amount of judges we 
were going to go out and hire. We are going to appoint new 
judges. That number has changed several times now. And it is my 
understanding now that new judges is not the concern. Now the 
concern is Spring Street is just too old.
    Mr. Peck. No, it is security concerns. And that has been 
consistent since we first proposed the product. I would just 
note that we are now back to--and I have to tell you, I will 
think this is a good story on this project--we are back 
proposing to you about the same amount of square footage that 
we proposed when this project was first authorized in 2000. And 
we are proposing to build within an appropriation that was 
given to us in 2004 and 2005.
    We have been told any number of times in this committee and 
other committees that we should proceed with this project 
within the budget that was appropriated in 2004, 2005, and we 
are now prepared to do that.
    Mr. Denham. Which was 72 judges. And we have 59.
    Mr. Peck. I don't ever recall a projection for 72 judges in 
this courthouse. There was a proposal for something like 41 
courtrooms at one time. But as I said, and this is another----
    Mr. Denham. The slide that was presented to you, the 2004, 
we actually had 67, and the 10-year projection was 81. So we 
were basing the scope of this project on 81 judges. In 2011, 
this year, we have actual 59 judges.
    Mr. Peck. That includes, I believe, bankruptcy and 
magistrate judges. There are--you know, you can compare--it is 
easy in this project, because there are lots of numbers 
floating around, to compare apples and oranges. There are 
district judges who require district courtrooms.
    Mr. Denham. Apples and apples, that was the projection. You 
are changing the scope of the project. That is the concern 
here.
    Mr. Peck. No, sir. The number of--in fact, the only way the 
scope of this project has changed--and this has been in 
response to concerns of the Congress over the years--is that we 
no longer scope a courthouse project by trying to figure out 
how many judges there might be in a district 30 years from now. 
We simply don't assume any expansion in judgeships, and we take 
a look 10 years out to see which judges might be taking senior 
status and how many active judges there will be.
    Mr. Denham. I am looking at the GSA prospectus, your 
prospectus, apples and apples, exactly what you presented to 
Congress. Number of judges, 72. That is the proposed 2011 
number. And the actual number right now today is 59?
    Mr. Peck. That includes a number of chambers for judges 
that will be going senior, I am told. And again, that includes 
district, magistrate, and bankruptcy judges.
    Mr. Denham. OK. We are in agreement on something.
    Mr. Peck. Pardon?
    Mr. Denham. We are in agreement on something. OK. Apples 
and apples now. What do you expect to use the Spring Street 
Courthouse for?
    Mr. Peck. If we continue to use the Spring Street 
Courthouse in the Federal inventory, the only thing I can tell 
you for certain that we know right now, because we haven't 
completed a study of it, is that there are some historic 
courtrooms that would be used for the grand jury, for U.S. 
attorney practice, and some other courtrooms that might be 
easily converted to conference room and training room space. 
That is, if we decide to keep it in the Federal inventory. And 
as I said, if it is cost-effective to do so, that would allow 
us to move a lot of Federal agencies out of costly leased space 
in the Los Angeles area. But we will have to make a 
determination about whether we keep it in the inventory or move 
it out of the inventory.
    And I would like to assure you that that is a study that we 
will move forward with quickly. So I am well aware that there 
are previous instances in which the old courthouses weren't 
pushed out of the inventory fast enough.
    Mr. Denham. Quickly within the next decade? What is 
quickly?
    Mr. Peck. Well, a decade is a pretty long time.
    Mr. Denham. I would agree. It took us two decades for the 
Old Post Office. So I would like to clarify what ``quickly'' 
would mean.
    Mr. Peck. I would be loath to tell you in Los Angeles 
exactly how fast that would be. We have got do the study and we 
have got to move it out. But I certainly think if we are moving 
ahead with a courthouse, you then have to build a courthouse. 
And the Spring Street Building wouldn't become excess until we 
finish construction, which probably wouldn't be until 2016 or 
so. So we are talking about a ways out before we do it. And 
then I think you could make a decision and certainly excess and 
surplus the building within a year after we move people out of 
it.
    Mr. Denham. If the Civilian Property Realignment Act were 
in place and signed into law today, would this be a candidate 
to be sold?
    Mr. Peck. The Spring Street Building?
    Mr. Denham. Yes.
    Mr. Peck. Not right now.
    Mr. Denham. If the new courthouse was built, would it be?
    Mr. Peck. Yes, sir.
    Mr. Denham. So we would not be looking to investing money 
into this to redo it or renovate it for any other purpose.
    Mr. Peck. I want to be really clear. What I said was we 
would take a look at what it would cost to renovate the 
building for Federal use and see whether that saved the 
Government in the long run, over continuing to lease space. But 
if it turned out it was too expensive to renovate and we didn't 
get a return on it, then we would say it is excess to the 
Government's needs.
    Mr. Denham. Thank you.
    And final question. Judge Morrow, you had said that the 
challenge that you face right now is that you are in two 
different courtrooms and they are .4 miles away?
    Judge Morrow. Two different courthouses, yes. They are 
about two blocks away. The problem we have right now, 
Congressman, is that we have active district judges and senior 
judges and magistrate judges in each building. District judges 
and magistrate judges perform, in our district, very different 
functions. The district judges handle virtually all of the 
civil trials, all of the felony criminal trials, all the guilty 
pleas, all the sentencing. Magistrate judges do different 
things. They handle habeas petitions, Social Security matters, 
discovery, settlement conferences, things that require 
different support functions from the activities that the 
district judges do.
    So we now have everyone split between two buildings. That 
results in the marshals going back and forth between the 
buildings all the time with the prisoners. It also results in 
duplicative clerk's office functions in each building. And part 
of the goal of the design plan that we have come up with with 
GSA is to get all of our active district judges and as many of 
our senior district judges as possible in one building so we 
don't have to duplicate those support functions, and so that 
the marshals are not constantly running back and forth between 
the buildings the way they are now.
    So it is a functional split, if you will, as opposed to 
what we have going on now, which is basically running two 
separate buildings doing the same things.
    Mr. Denham. And you have a mix right now. You have district 
judges in both buildings and you have magistrate judges in both 
buildings?
    Judge Morrow. Yes. And in the proposed plan we would have 
all the active district judges and approximately 50 percent of 
the senior district judges in one courthouse. We would have all 
of the magistrate judges and some overflow senior judges, if 
you will, in the Roybal Building. And of course the bankruptcy 
court, which is a separate independent jurisdictional kind of 
court, is also in the Roybal Building as well.
    Mr. Denham. The district judges, that is where we run into 
challenges with the marshals and security and----
    Judge Morrow. Yes. Because we are the ones who are doing 
all the felony work, the guilty pleas, the sentencings. I mean 
the magistrate judges do handle arraignments, but those are 
always done all in the Roybal Building. But these other 
criminal activities are done exclusively by the district 
judges.
    Mr. Denham. Why not put all the district judges in the 
Roybal Building?
    Judge Morrow. A couple of things about that--first of all, 
the way the Roybal Building is configured. Currently the 
district judges who are resident in the Roybal Building--I am 
one of those--are in a lower part of the building. There are 
two towers, two elevator towers. And in order to move all of 
the district judges into the Roybal Building, there would have 
to be significant renovations of that building, because the 
second tower, the higher tower, is now occupied by the 
bankruptcy court. None of those courtrooms would work for 
district court functions. They have no prisoner access. They 
have no holding cells. They have jury boxes, but they are not 
usable by the district court because they only seat 6 people, 
and we need 14-people juries in criminal cases, and we seat 8-
person juries, by and large, in civil cases.
    So the jury facilities are inadequate, the prisoner 
movement is inadequate, and currently we have a holding cell 
down in the bottom of the building. The Marshals Service has 
indicated to us that in order to access those higher level 
floors, they would have to build a holding cell, a second 
holding cell on the 18th floor, which is where Congresswoman 
Roybal-Allard's office currently is. They would have two 
holding cells, two separate prisoner movements, and it would 
create real problems for them in the building. So we can't use 
the existing bankruptcy courtrooms. We would have to completely 
reconfigure them. GSA would have to build a new elevator shaft. 
It would be a highly costly venture.
[GRAPHIC] [TIFF OMITTED] 71099.022

[GRAPHIC] [TIFF OMITTED] 71099.023

    Mr. Denham. Mr. Peck, you weren't here during that time 
when the Roybal Building was built, were you?
    Mr. Peck. No.
    Mr. Denham. It wasn't constructed wrong, was it?
    Mr. Peck. Even before my time. I will say, just so we note 
for the record, I was saying to our staff it seems like we have 
studied just about every permutation and combination of 
courtrooms, chambers, and buildings that you can imagine in the 
Los Angeles District. I was out there last week looking at it. 
And as you know, at one time there was a proposal that GSA put 
forward to consider a combination of a new building and a 
renovation of Roybal. We have looked at the renovation of 
Roybal alone. It is very costly, as Judge Morrow noted. And 
really, this is I think the smartest way to provide the space 
we need for the district court judges. The Roybal Building 
would be principally magistrate and bankruptcy, with some 
courtrooms for senior district judges.
    And finally, I would note something, that when we are done, 
and again I think I have the numbers right, we will have 
something between 42 and 49 courtrooms between the buildings. 
Again, 21 that are active district judge courtrooms, 21; three 
in the new building that would be used for senior judges. And 
if the projections are right on the number of judges that go 
senior in 10 years, we will have 73 judges sharing 40-some 
courtrooms. So if you want to mix up all the courtrooms----
    Mr. Denham. The projections haven't been right in the last 
two decades.
    Mr. Peck. But I want to be really clear these are not 
projections of Congress creating more judgeships. These are 
projections--we have kind of a baby-boom generation of judges 
who are eligible to go senior. So we will end up for a while 
with more judges who are senior, but we are not building very 
many courtrooms for them. We are not counting on that.
    Mr. Denham. Thank you. Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. You know, Mr. Peck, 
when you look at a courthouse like the Prettyman Courthouse, 
you walk into that courthouse, this is the main courthouse in 
the District of Columbia, it is a perfectly suitable building, 
but it is also an historic building. So, when you consider the 
emptiness of the building now, or virtual emptiness of the 
building when it comes to courthouses, it is difficult to know 
how better utilization could ever be made of Prettyman. 
Prettyman is historic for a number of reasons, including the 
judges who served there and the trials that have occurred 
there. And so, it makes you want to cry to go into a building 
that no one ever thought would be abandoned and to see that 
probably there is no good use that could be made of it now. It 
also is on Constitution Avenue.
    Mr. Peck. Ms. Norton, may I say I actually share your 
affection for the building. I filed briefs there when I was a 
much younger attorney. I have served on a jury there. I have to 
say there are two things to say about the whole Prettyman. One 
was that the annex was built under the old projections, which 
we have changed, on how we build courthouses. That was built at 
a time when we did assume----
    Ms. Norton. That is why I asked you in my prior round of 
questions whether there was ever any intent to abandon 
Prettyman. Nobody builds an annex with the thought in mind that 
all the judges will no longer be in the historic courthouse.
    Mr. Peck. That is correct. I don't think there was ever an 
intention to abandon it. It is partially occupied now, and we 
have actually been trying to find funds to renovate the 
building, because I believe that the court thinks that there is 
still a good use for it.
    Ms. Norton. Well, if not, we are not going to be able to do 
anything about it. It will just go down as one more reason why 
we have to be very careful in the future.
    Now, you are aware of an issue that was not of GSA's doing, 
and that had to do with what has led to a new look at 
utilization rates in Federal office buildings throughout the 
country. We found that if you don't police that, that even 
Federal agencies will think they are Federal judges, and they 
will get utilization rates that taxpayers would be amazed to 
see. And so, that occurred when the SEC was given authority it 
never should have had.
    I have introduced a bill. SEC, of course, has said it will 
never do this again, but it was such an outlandish violation of 
utilization rates that I have introduced a bill to take away 
any authority from SEC, even though it has obviously given up 
the authority. And I don't think any agency except GSA should 
have such authority. But you know, we begin to wonder about GSA 
when GSA is led by the nose by agencies. And it has happened 
with agencies, and it certainly happened with the courts to a 
fare-thee-well, as if the courts, Article III courts, as if 
they have any jurisdiction whatsoever to say what courthouses 
will or will not be built. We don't share jurisdiction over 
that matter with judges or anyone else.
    I want to ask you: Is there any difference between the 
mandated decrease in utilization rates that the administration 
and GSA is supporting and requiring active judges to share 
courtrooms?
    Mr. Peck. Well, first of all, if you will allow me to say, 
we are achieving some significant success in talking to 
executive branch agencies about reducing their utilization 
rates.
    Ms. Norton. Not only are you achieving it, let me commend 
GSA. When you came before us--and I only regret that we did 
only six or so of your leases this time--no one could help but 
be impressed with the reduction in utilization rates and how 
they reflected themselves--how that reflected itself in less 
space that you asked for. It was astounding to see how much, 
how many millions of dollars of space GSA saved simply by using 
a reduced utilization rate so that people that work in Federal 
agencies are going to have to work in less space.
    My question to you, after commending you on what you are 
doing I think so well with Federal agencies, is to indicate 
why, if at all, there is any difference between decreasing the 
amount of space, utilization space for other Federal employees, 
and requiring judges to share courtrooms?
    Mr. Peck. Well, I guess I would like to respond in two 
ways. One is even with respect to executive branch agencies, we 
are not in most cases just imposing a blanket number. We are 
talking to them about their functions and asking questions 
like----
    Ms. Norton. You not only are doing that, and we never--this 
committee has never stood for inflexibility. You not only are 
doing that, those numbers are reflected in the prospectuses for 
leasing that come before and are approved by this subcommittee. 
So we know exactly what you are doing, we approve them. We know 
there are differences between agencies. And there may be a 
difference between courts. No one would require an 
inflexibility when it comes to courts.
    But I am asking a very specific question. And that is, what 
is the difference between a decrease in the utilization rates 
for Federal office space and requiring active judges to in fact 
share courtrooms where that is feasible?
    Mr. Peck. OK. Well, number one, I think that we should all 
take some comfort in the fact that over the last decade the 
courts have agreed to a different sharing policy. So in essence 
they are reducing space. In fact----
    Ms. Norton. But they have not agreed to share space when it 
comes to active judges. We just had a judge testify here today 
that there would not be sharing.
    Mr. Peck. But they are sharing for magistrate judges, for 
senior judges. You know, there are other space----
    Ms. Norton. So this committee should be satisfied if the 
judiciary goes along with some of what we mandated, not all of 
what we mandated?
    Mr. Peck. Well, I think that what the committee, as I 
understand it, has mandated over the years is that we take a 
look at sharing and see where----
    Ms. Norton. You have testified you haven't taken much of a 
look at sharing, because Mr. Goldstein is seated next to you, 
and you haven't had any conversations with him about it.
    Mr. Peck. Well, to be candid, my conversation about sharing 
courtroom space has been with the courts, who are----
    Ms. Norton. Why hasn't your conversation also been--I don't 
object to your discussing this matter with the courts anymore 
than I would object your discussing utilization rates with 
Federal agencies. What I do object to is your having no 
discussions with Mr. Goldstein when this committee was clear 
that it was impressed with the GAO report. That is what I am 
objecting to, Mr. Peck.
    Mr. Peck. I don't know if you would call it a conversation, 
but we certainly had a back-and-forth with Mr. Goldstein about 
methodology and the results of his report.
    Ms. Norton. Just a moment. So your testimony here today is 
having had a back-and-forth with Mr. Goldstein, you do not 
agree with Mr. Goldstein, so you are going to ignore the GAO 
report?
    Mr. Peck. We have not ignored the GAO report. In fact, as I 
said, we have changed our policy with respect to coming back to 
the committee for scope. And we are--we have also talked to 
the----
    Ms. Norton. Mr. Peck, you know what, you are filibustering.
    Mr. Peck. No, ma'am.
    Ms. Norton. That doesn't work with me. And this is what I 
am going to ask. Mr. Chairman, I am going to ask that Mr. 
Goldstein and Mr. Peck sit down, and within the next 30 days 
submit a report to the chairman of this subcommittee on what 
agreement, if any, you have reached with respect to the GAO 
report. Within 30 days a document, 30 days of the day of this 
hearing, not a back-and-forth. Mr. Peck, this committee 
endorses, made that clear when it came forward, the GAO report.
    So within 30 days, I want you to have a conversation with 
Mr. Goldstein. And that conversation should be reflected in a 
report as to what, if anything, you have decided in your 
conversations with Mr. Goldstein.
    Mr. Peck. I will be happy to do that.
    Ms. Norton. That is all I am asking.
    Mr. Denham. And respond back to this committee with any 
recommendations where there is an agreement between the two on 
courtroom sharing.
    Mr. Peck. Yes, sir.
    Mr. Denham. Thank you.
    At this time, I would ask unanimous consent that Ms. Brown, 
who is a member of the Transportation and Infrastructure 
Committee, be permitted to participate in today's committee 
hearing.
    Without objection, so ordered.
    Mr. Peck, I think it is great that we are now going to be 
having a conversation with GAO that should have happened a long 
time ago. I agree with Ms. Norton on it. But you said you have 
had conversations with the judicial branch. Do you have an 
agreement with them on courtroom sharing?
    Mr. Peck. Well, our agreement so far on courtroom sharing 
is the policy that we have described, that there is courtroom 
sharing with senior judges and magistrate judges.
    Just one thing I would like to note. We focus a lot, and we 
have been focusing for a long time, on courtroom sharing. There 
are other aspects to the size of a courthouse that we also have 
conversations with the courts about: size of jury assembly 
rooms, the size of the district clerk's office, the size of 
chambers, whether there are large--and if there aren't any 
longer--large libraries when we don't use books as much as we 
used to. So we have reduced the amount of space in courthouses 
in areas other than just courtrooms.
    Mr. Denham. I am looking at the Judicial Conference of the 
United States, what they came back to this committee on. And in 
the third paragraph, it says, ``After reviewing the data 
gathered during the study, the Conference today adopted a 
policy for senior trial judges to share courtrooms.''
    Is there any courtroom sharing happening right now at the 
Roybal Building, Judge Morrow?
    Judge Morrow. For the district and magistrate judges in the 
Roybal Building, no; in the Spring Street Building, yes.
    Mr. Denham. Mr. Peck, are we following the Judicial 
Conference report as far as the Roybal Building is concerned?
    Mr. Peck. The Roybal Building was built before the Judicial 
Conference adopted its sharing guidelines, so I defer to Judge 
Morrow on how much sharing is going on right now.
    Mr. Denham. In your opinion, Mr. Peck, is there any reason 
that the Roybal Building would not be doing the sharing that 
the judicial branch has recommended?
    Mr. Peck. I am at a loss to answer your question in part 
because I don't know enough. But I can tell you that when we 
do--our plan is that the Roybal Building will reflect the 
sharing policy when we are done with building a new courthouse 
and moving people out of Spring Street.
    Mr. Denham. Is it your plan to demolish seven courtrooms 
within the Roybal Building?
    Mr. Peck. It is--part of the plan, as I understand it going 
forward, part of the plan would be to as many as seven small 
courtrooms in the Roybal Building--we are not talking about 
district courtrooms, but smaller courtrooms--and convert them 
into chambers, as I understand it.
    Mr. Denham. Are you sure they are not district courtrooms?
    Mr. Peck. I don't know.
    Judge Morrow. Congressman, may I respond to that?
    Mr. Peck. Some might be district courtrooms. I don't know. 
I know there are seven courtrooms, some are not district, and 
they would be converted to chambers.
    Judge Morrow. Congressman, we applied the new sharing 
policies for magistrate judges and senior judges to calculate 
the amount of space required in the new building and also to 
calculate the amount of space that we would occupy in the 
Roybal Building. And the net result of that, if I may disagree 
with Mr. Peck, is that there would be three magistrate judge 
courtrooms in the Roybal Building that would be vacant once the 
new building is constructed and personnel have moved into 
Roybal and into the new building.
    Those we will need for chambers, because we do not have 
enough chambers in the Roybal Building now to house all of the 
judges who would move into that building. If that wasn't 
feasible for some reason, then the court would release that 
space to GSA so it could move executive branch agencies in 
there. Because, as Mr. Peck has said, there is about 1 million 
square feet of lease space in downtown Los Angeles that is 
presently occupied by executive branch agencies.
    Mr. Denham. Let's put up slide number 5 again. I think you 
all have this in front of you.
    So, looking at that courtroom, the bottom floors is where 
we have the security, the holding areas, the district judges. 
Under the GAO's model, we would be able to fit 47 judges there, 
21 district, 9 senior, 17 magistrate. We also have, instead of 
the 12, we have 16 bankruptcy courtrooms right now, 4 of them 
being unused? Is that correct?
    Judge Morrow. That is correct.
    [GRAPHIC] [TIFF OMITTED] 71099.024
    
    [GRAPHIC] [TIFF OMITTED] 71099.025
    
    [GRAPHIC] [TIFF OMITTED] 71099.026
    
    Mr. Denham. Well, what are those four used for today?
    Judge Morrow. I can't answer that question because it is a 
bankruptcy court space.
[GRAPHIC] [TIFF OMITTED] 71099.027

    Mr. Denham. My chief consultant here says he toured it and 
it was full of furniture. The four offices were shut down.
    My question is, if we are shutting down Spring Street and 
we have an opportunity to share courtrooms here, why are we 
building a new courthouse?
    Mr. Peck. Because all of the studies that we have done over 
the years have shown that trying to retrofit the Roybal as a 
courthouse that meets the security standards that we have for 
the courts is expensive.
    So is there enough square footage? There probably is. But 
at the end of the day----
    Mr. Denham. Mr. Peck, have you done a study on this 
building as it pertains to courtroom sharing?
    Mr. Peck. I would have to--I don't know if we have done it 
with respect to courtroom sharing. We did it----
    Mr. Denham. OK, hold on. Let me stop you there.
    You have met with the judicial branch. You have agreed with 
the judicial branch that there is going to be a new courtroom-
sharing model. You have come back to Congress and you said, 
$400 million we are going to spend on this brand-new 
courthouse. And the Roybal Building, which is a newer, secure 
courthouse, you have not even done a study on courtroom sharing 
there?
    Mr. Peck. Mr.----
    Mr. Denham. How do you propose--when you are building out 
the entire L.A. area on a courtroom need, how do you find a 
need to have a new building when you haven't done a courtroom-
sharing model on what we currently have?
    Mr. Peck. Mr. Chairman, let me correct myself here. We have 
taken a look, again, at the options of renovating the Roybal 
and building a new courthouse to meet the courts' needs for 
court district, magistrate, bankruptcy courtrooms, and to do it 
in a secure environment. And our conclusion is that the best 
way to do that is to build a new courthouse and to retrofit the 
Roybal for certain other purposes, but not principally for the 
district courtrooms.
    So there will be sharing in the Roybal Building. They will 
be sharing senior district courtrooms and magistrate and 
bankruptcy courtrooms.
    Mr. Denham. Thank you.
    It is my understanding, on the lower part of this, where we 
have the secure area, where we have the holding areas, we also 
have one floor that is completely just office space. It was 
designed to have four courtrooms in it. It came to this 
committee in a prospectus to have four courtrooms in it. Yet 
there was not a need to have extra courtrooms at the time, so 
we put--instead of having the secure area being utilized for 
courtrooms, we now have that as office space.
    Is that correct, Mr. Peck?
    Mr. Peck. I am told that that is correct.
    Mr. Denham. So we could certainly redevelop that one floor 
back to its original purpose and put four new district secure, 
state-of-the-art courtrooms in there.
    Mr. Peck. Mr. Chairman, the problem is that you can 
describe it as secure, but we can't, in this building, without 
doing things like building a new elevator shaft, make the 
building a secure courtroom to handle prisoners in the way that 
we do it in modern courthouses with three separate circulation 
systems.
    Mr. Denham. I am looking forward to touring it firsthand, 
seeing it firsthand.
    Mr. Goldstein, can you explain this model here?
    Mr. Goldstein. Yes, sir. What that model represents--as you 
know, we developed this model with simulation experts, and our 
model was peer-reviewed by the people who made the software, so 
it has been vetted and validated.
    So our approach includes: all case-related activities are 
included; all time allotted to non-case-related activities, 
including preparation time, ceremonies, educational purposes, 
are included; all events that are canceled or postponed within 
a week of the event are included, and that is 60 percent of all 
events that are scheduled in a courtroom.
    So what we did is, the model was then developed using, 
again, the judiciary's own data. And so, based on the number of 
current judges in the district court, there were three 
approaches. under a dedicated sharing model, which allows 
judges to be assigned a courtroom which they share, you would 
need 26 courtrooms--17 district and 9 magistrate. Centralized 
sharing within type, meaning that the district judges share and 
then that the magistrate judges share, shows that you need 22 
courtrooms--15 for district and 7 for magistrate. And fully 
centralized, in which you have all judges sharing across the 
spectrum, you could have 21 courtrooms.
    If, indeed, the projections for additional senior judges 
were actually to come true--and, in many cases, we know they do 
not--you would need an additional three courtrooms at that 
point.
    Mr. Denham. So an additional three courtrooms. That would 
be converting the one floor of office space into the four 
courtrooms?
    Mr. Goldstein. Yes, sir. And you also have, of course, the 
arraignment, you know, courtroom that exists as well.
    Mr. Denham. So there is one extra courtroom, and you could 
also redo one of the upper floors as well?
    Mr. Goldstein. That is my understanding, sir, yes.
    And this would still allow, based on the most conservative 
use of the model that we developed, somewhere between 18 and 22 
percent of time for courtrooms when they are still not being 
used.
    Mr. Denham. Eighteen to twenty-two percent----
    Mr. Goldstein. Even after this, yes, sir.
    Mr. Denham [continuing]. That wouldn't be used, vacant 
space.
    Mr. Goldstein. Not vacant. Well, in the existing courtroom, 
the time, the time during the day, where the courtrooms would 
still be dark.
    Mr. Denham. So if we had a sudden influx of judges, could 
we even accommodate more in the Roybal Building than----
    Mr. Goldstein. We can certainly take a look and get back to 
the committee. I would hesitate to tell you the full 
utilization rate until I did that.
    Mr. Denham. Thank you, Mr. Goldstein.
    I am way over my time. Ms. Brown?
    Ms. Brown. Thank you, Mr. Chairman.
    I am just not really, kind of, comfortable with the tone of 
this meeting, having gone through building a courthouse in 
Orlando, a Federal courthouse, and the first Federal courthouse 
that was built after the Oklahoma City bombing. And so, some of 
the factors that you consider--safety is the first factor.
    And I would like to hear from the judge on the safety 
issue. Because I will be in Los Angeles next week, and I 
personally want to tour and get an update and see for myself. 
Because, you know, it is one thing for us to put something in 
writing, but it is a definite difference as to how it pans out 
in the district.
    So can you give us an update? Because I am most concerned 
about the safety aspect.
    Mr. Denham. And, Judge Morrow, before you respond, Ms. 
Brown, I am planning on being there next week as well. I would 
look forward an opportunity if we can coordinate schedules, we 
could see it firsthand together. That would be a good 
bipartisan way to----
    Ms. Brown. Sounds like a date to me.
    Mr. Denham. Sounds good.
    Judge Morrow. And we would love to give you a tour, all of 
you who would like to come.
    Yes, Congresswoman, I can respond to your question. We have 
two facilities in Los Angeles, the Spring Street Courthouse and 
the Roybal Building. Roybal has relatively good security. 
Spring Street is really the problem.
    Spring Street is a very old building; it was built in the 
late 1930s. It has no secure prisoner circulation to many of 
the courtrooms in the building. The secure prisoner circulation 
that does exist goes to some of the courtrooms, and the 
marshals have stopped using that because it is so dangerous to 
transport the prisoners in this very narrow, winding corridor, 
that they are fearful for their own safety as well as the 
safety of some of the inmates. So these prisoners are being 
moved through the building in public hallways and on public 
elevators, where they run into parties, witnesses, jurors, 
victims, judges, court personnel.
    And large numbers of them have to be moved, often, at one 
time. Because, in our district, we have a number of gang 
prosecutions where we have 50 to 70 defendants in one case. The 
Department of Justice has partnered with the Los Angeles Police 
Department to do large gang takedowns in Los Angeles, because 
it has one of the highest gang populations in the country. And 
all of those cases are brought in Federal court because our 
penalties are higher.
    So we have all of those kinds of cases. The Department of 
Justice also determined to transfer members of the Aryan 
Brotherhood prison gang from prisons all over the country into 
our district so that they could be prosecuted in our district. 
We had death-penalty-eligible people in that case. We had very 
serious security risks with those defendants. We have to take 
special measures when we have those kinds of cases in the 
district.
    So the marshal is, I think, reasonably concerned about the 
state of the security in the Spring Street Building. And the 
problem with it is, because it is such an old building and 
because of the particular configuration of the building, GSA 
cannot come in and fix those problems. They cannot be fixed. 
And so it is a real concern for us.
    There is also a concern that is somewhat unique to the 
judges, in the sense that the prisoners are brought to the 
courthouse in small vans. A large prisoner bus cannot come into 
the courthouse. It is just not large enough for that to happen. 
So they are brought, very frequently, in these small vans. 
Those vans pull into the judges' parking lot, the judges' 
parking area in the building. Judges are getting out of their 
cars, the prisoners are getting out of the vans. They come 
face-to-face with one another. And they all have to be in the 
courtroom at the same time, so there is no sitting back and 
waiting until the prisoners have been taken in. It is a 
dangerous situation. And, once again, the building can't be 
fixed to remedy that problem because you cannot put a sally 
port on the building.
    So there are definite concerns and issues with security in 
that building.
    Ms. Brown. Mr. Peck, would you like to respond?
    Mr. Peck. I was out there last week, and I actually saw the 
area that Judge Morrow is talking about, where the vans come in 
and let the prisoners out. There were a couple of courtrooms in 
there where the prisoners and the marshals have to be in a very 
narrow space, which is dangerous for the marshals. It is a 
problem waiting to become even more evident, or tragically 
evident.
    Ms. Brown. Thank you.
    I yield back the balance of my time.
    Mr. Denham. Mr. Peck, when you were out there, did you see 
the four courtrooms that were full of furniture?
    Mr. Peck. I did not this time. I had one other time. There 
was a very small--I don't know if I am talking about the same 
space, but I do recall seeing a very small--what had been 
called a courtroom, looks like a conference room, a one-story 
space that is now used for storage. It was not a two-story 
full-height district courtroom that is being used for storage.
    There are a number of courtrooms in this complex that we 
are calling courtrooms that are pretty small spaces. And to be 
fair and honest, the bankruptcy proceedings are pretty much 
just counsel and don't require the same kind of space that a 
district court requires.
    Mr. Denham. And just for the record, I am not saying that 
we should never build any courtrooms in the L.A. area. I am 
just saying that we ought to fully maximize the ones that we 
have today--use sharing, use a courtroom for more than an hour-
and-a-half a day, use a courtroom not to store furniture but to 
actually conduct court in it.
    And when we have made a secure area with a holding area and 
we have changed our prospectus and changed our building model 
to facilitate office space, rather than the courtrooms that 
were once proposed, we ought to take a look at those things 
before we go moving forward on a $400 million project that 
could possibly go into a half-a-billion-plus project.
    Mr. Peck. Well, Mr. Chairman, I couldn't agree with you 
more that, before we spend this kind of money on the taxpayers' 
behalf and their money, that we make sure that we are doing it 
as efficiently as possible. What I am----
    Mr. Denham. Wait. Before we do it as efficiently as 
possible, yet you have not done a court sharing analysis on the 
Roybal Building.
    Mr. Peck. No, I am sorry----
    Mr. Denham. Wouldn't you expect to do that before you go 
out and spend $400 million on a new building?
    Mr. Peck. Mr. Chairman, I want to clarify again. The 
proposal that we are making to build a 24-courtroom, 32-chamber 
new courthouse did include an analysis of how we would go 
forward with the Roybal Building.
    And we have--this is a very complicated project. And anyone 
can say, as you have just asked about the Roybal Building, you 
can take a look at square footage in a building and say, can 
you get all this square footage in there? Yes. But this is the 
problem with building projects in real estate: You have to look 
at the building itself. You have to look at the way it is 
configured. You have to figure out whether, when all is said 
and done and you were to go into the Roybal Building and try do 
this, whether having spent probably the same amount of money or 
more, whether you would end up with a building that is actually 
efficient and meets the security requirements.
    In our determination--and this has been going on now for 10 
years--is that the best way to do this is to use the Roybal for 
certain purposes, which includes some court sharing, and to use 
the new L.A. courthouse for other purposes for the district 
courts. I mean, that is--I can tell you, this thing has been 
studied to death.
    Mr. Denham. And, Mr. Peck, I know we do a ton of studies 
here. We do study things to death here. My concern is, in this 
one area, we have failed to do the final studies on most of 
these courthouses and we have moved forward, wasting taxpayer 
dollars.
    Let's put up slide number 6 again. These are all buildings 
that we don't have in our excess property portfolio and yet 
they are sitting vacant, costing us millions of dollars every 
year.
    Mr. Peck. Well, Mr.----
    Mr. Denham. And we are going to see the same type of 
scenario here in L.A. with the Spring Street Courthouse.
    Mr. Peck. Mr. Chairman, two things.
    One is that--I would like to separate two issues. In almost 
every one of these instances, we also built a new courthouse 
because we had security issues with the old one or capacity 
issues. The question of whether we have taken them out of the 
inventory or should take them out of the inventory is a 
separate question.
    But I would just note the Brooklyn-adjacent courthouse, for 
example, if it is the one I am thinking of, it has been vacant 
because we have had it under renovation, and I think it is 
being reoccupied for the bankruptcy courts. The Seattle 
courthouse is being used for the--the old one is being used for 
the appellate court, as you note. The other ones I will get you 
reports on.
    But I have also committed to you that when we finish this 
project in Los Angeles, the Spring Street Building is either 
going to be fully utilized by the Federal Government or we will 
get it out of the inventory.
    Mr. Denham. Thank you.
    And one final question. I am looking forward to seeing the 
utilization on all of these buildings, as well as the amount of 
lease space that we have in each of those cities.
    But the final question I have before I turn it back over to 
Ms. Norton: I assume that OMB has signed off on this project, 
Mr. Peck?
    Mr. Peck. OMB has signed off on our--yes, sir, on our 
moving forward with the new courthouse, yes, sir.
    Mr. Denham. And you intend to resubmit a new prospectus for 
approval to this committee?
    Mr. Peck. Mr. Chairman, we have an appropriation to move 
forward with the project. We intend to submit to you all the 
facts that are necessary for you to take a look at it. But, as 
I said, you know, this project has already been authorized and 
it has been appropriated, and we have been under pressure from 
the appropriators to move forward. We will provide you with 
information so that you can see exactly what we are doing.
    Mr. Denham. So, once again, we started with a discussion of 
keeping things within scope and cost or coming back to this 
committee. In the last decade, has the scope of this project 
changed?
    Mr. Peck. Yes, sir, although the square footage is now back 
to where it was authorized in--we are proposing less square 
footage than was authorized when the project was appropriated 
in fiscal 2004-2005. The prospectuses that the committees in 
the Senate and the House approved were for a far larger 
building. We are proposing less square footage in the building.
    Mr. Denham. And in the Roybal Building, are you going to 
have to do any renovations?
    Mr. Peck. We will be doing renovations at some point in the 
Roybal Building, yes, sir.
    Mr. Denham. What is the cost associated with that?
    Mr. Peck. We don't have the cost estimates on that yet for 
the backfill and other renovations in Roybal. That would be a 
separate prospectus and a separate authorization.
    Mr. Denham. Now, how do we always get cost estimates before 
you get cost estimates? Why can't we work together and come up 
with these estimates together? I mean, we already have 
estimates. We have a pretty good idea of what it is going to 
cost to renovate that building.
    So, before you come back to Congress, before you come back 
to Congress and ask for another appropriation at a time when we 
have a $15 trillion debt and we are trying to cut things 
everywhere, before you come back to us, you are going to leave 
a lot of this area vacant because you don't have money to 
renovate it?
    Mr. Peck. We are mostly moving--remember, this project is 
mostly moving courtrooms out of the Spring Street Building into 
the new L.A. courthouse. That is the crux of the project. The 
Roybal will be----
    Mr. Denham. I understand, but we aren't fully utilizing the 
Roybal Building today. We have one floor that was supposed to 
be a secure courtroom area that is now office space. We have 
another full floor that is full of furniture because we are not 
utilizing those courtrooms.
    Mr. Peck. Mr. Chairman, there is a sequence to the project. 
And the first thing we need--so we need to build a building, 
move people out of Spring Street. And when we do that, we will 
then also be making some changes to the Roybal Building. But 
that is quite a number of years from now before we get to that. 
And when we do, we will develop detailed cost estimates and a 
schedule, and we will submit that to you.
    To the extent that you have a cost estimate right now, you 
have probably heard the same back-of-the-envelope cost estimate 
that I have heard. But I don't have a real program or a real 
budget yet.
    Mr. Denham. The proposed courthouse, $400 million, that you 
are not coming back to this committee for a re-approval even 
though we are dealing with something that was appropriated 
about a decade ago, you expect to get this project done for 
$400 million? I know you are downsizing the building because 
there is not enough need.
    Mr. Peck. Yes, sir. Actually, we have $365 million to spend 
on the project because it cost us some money to acquire the 
site and to do a previous design which will no longer work. So 
it is $365 million to design and build a new building.
    Mr. Denham. To design and build.
    Mr. Peck. Yes, sir.
    Mr. Denham. Haven't we already designed it several times?
    Mr. Peck. We designed it once. We only designed it once. We 
have thought about it many times, but we only designed it once, 
thank goodness.
    Mr. Denham. So we have $365 million left to build this new 
courthouse. Your plan is to--or at least, under the law, under 
Title 14, you can go 10 percent higher than that. At what point 
do you plan on coming back to this committee during the 
process?
    Mr. Peck. Mr. Chairman, I don't plan ever to come back to 
get an additional authorization or appropriation on this 
building.
    Mr. Denham. Ms. Norton?
    Ms. Norton. So, despite the fact that the project 
originally authorized 1 million square feet and, as I 
understand it, now you are building 650,000 square feet, leave 
aside the appropriation, it is your testimony that you have the 
authority to go forward now and that the scope of the project 
has not changed?
    Mr. Peck. Well, the square footage has not changed.
    Ms. Norton. What does ``scope'' mean to you? It was 1 
million square feet in the original authorization.
    Mr. Peck. Right, and 40-some courtrooms, if I recall 
correctly. And we are now proposing about the same square 
footage for----
    Ms. Norton. 1 million square feet? I thought it was 650,000 
square feet.
    Mr. Peck. I am sorry. It is about 650,000 square feet is 
what we are now proposing to build.
    Ms. Norton. And that is not a change in the scope of the 
project?
    Mr. Peck. It is a decrease in the scope of the project, it 
definitely is.
    Ms. Norton. Well, just a moment. You said a change in the 
scope of the--see, now, this is what----
    Mr. Peck. I am not trying to parse words.
    Ms. Norton. I am just asking, is it a change in the scope 
of the project and aren't you supposed to come back to the 
committee when there is a change in the scope of the project, 
whether it is a change upward or a downward change?
    Mr. Peck. Ms. Norton, we are----
    Ms. Norton. I am just saying--I am asking this----
    Mr. Peck. Yes, ma'am.
    Ms. Norton [continuing]. For purposes of precedent.
    Mr. Peck. We----
    Ms. Norton. I don't want the result of this committee 
hearing to be that we authorized you, in spite of what looks to 
be a change in the scope, to go forward without coming back to 
this committee.
    Mr. Peck. Ms. Norton, well, we are here at the committee. 
We are going to provide you with information on it. I would 
note, the committee has already----
    Ms. Norton. We have not authorized a 650,000-foot--and, by 
the way, I hope we are not talking about cubic feet--a 650,000-
square-foot building. We haven't authorized that.
    Now, I am pleased to see----
    Mr. Peck. Ms. Norton----
    Ms. Norton [continuing]. That you are trying to fit within 
the appropriation. And you don't have any choice but to fit 
within the appropriation. Believe me, you don't have any 
choice.
    Mr. Peck. Correct.
    Ms. Norton. But that doesn't mean that the authorizers 
ought to be ignored.
    Mr. Peck. And we are anything but ignoring the authorizers, 
Ms. Norton. We are here today. We are going to provide you with 
more information about the project.
    Ms. Norton. Do you know why you are here today, Mr. Peck? 
You are here today because this committee called you here 
today. You are not here today to seek the committee's 
permission for a change in the scope of this project.
    Mr. Peck. That is correct.
    Ms. Norton. You are here because we got word that you were 
thinking of building a different project in L.A., and we said, 
well, we had better call the GSA here.
    You make it sound as if you have come in the normal course, 
as the subcommittee has mandated, to get the permission of the 
subcommittee for a change in the scope of the project, when, in 
fact, on the basis of rumor, we called you here to hold this 
hearing, and you did not ask for this hearing.
    Mr. Peck. That is correct. But, Ms. Norton, we were going 
to provide, and will provide, a notification to the committee. 
That is our practice, and that is what we intend to do.
    Ms. Norton. I will leave it to the chairman to decide 
whether the notification is sufficient to fit within our 
mandate regarding the scope of the project. I will take that no 
further, except to say, I want to say on the record that this 
project is not an exception to the mandate of this committee 
regarding changes in the scope of a project. I do not want this 
cited back to us as a precedent for how, if you lower, then of 
course you don't have to come back. You have to come back when 
the committee says and has already indicated when you come 
back.
    I have one more question. Now, we have been talking about 
sharing. And, by the way, Mr. Peck, we intend to inform the 
appropriators, as well, about the reason that the committee 
believes that sharing should occur with active judges as well. 
We don't think the appropriators, given what they are going 
through, are going to take the position that active judges 
shouldn't share courtrooms unless Mr. Peck can get the judges 
to agree to share courtrooms.
    And I think you are going to have that reflected in the way 
in which appropriations occur going forward, if you are ever 
able to get another appropriation. And I say that advisedly. It 
is going to be very hard to get any money from the 
appropriators or anybody else in the Congress of the United 
States to do anything. If you didn't already have money that 
has been lying on the table for more than 10 years, this 
project would be dead in the water.
    And you know, and you are here, and not only because we 
called you here, but you know this money is going to be 
rescinded if you do not use this money.
    Mr. Peck. I am well aware of that.
    Ms. Norton. I would like Mr. Goldstein--we have been 
talking about sharing in the ordinary course. And, of course, 
the judges have been willing to give away the bankruptcy judges 
and the magistrate judges, anybody but themselves.
    But I want Mr. Goldstein to describe centralized sharing 
and what is the difference between centralized sharing and the 
sharing we have been discussing here.
    Mr. Goldstein. Ms. Norton, the centralized sharing is where 
judges will share based on a scheduling system that is done 
across the court, like you do here for, you know, hearing 
rooms. If you want to use a hearing room here, Mr. Chairman, 
you have whoever is in charge of scheduling schedule your 
subcommittee when you want to use the room. And so, that is how 
it is done.
    The difference between that and what I called ``dedicated 
sharing'' earlier is, there isn't any sort of central 
scheduling; it is where two judges are paired up. And that is 
mainly what has been occurring in Manhattan in the last couple 
years while they have been retrofitting the other courthouse.
    Ms. Norton. Well, is there any centralized sharing going on 
in the United States?
    Mr. Goldstein. Certainly not among active judges. There is 
very little sharing that goes on, because, obviously, any 
sharing that does occur is at the margins in new construction 
among some senior and some magistrate judges.
    But the important thing to note here is that the sharing 
policies of the Judicial Conference, while they have gone 
certainly further than they had gone from years past, aren't 
based on courtroom usage data that the Federal Judicial Center 
did. They are simply based on policies that they developed. But 
they are not based on the actual usage of courtrooms today.
    Ms. Norton. Well, does your report indicate that 
centralized sharing would be based on actual use?
    Mr. Goldstein. Well, certainly the model that we produced 
did exactly that. It uses actual data that was developed by the 
judiciary. And that was the basis of the modeling that we did.
    Ms. Norton. Mr. Peck, why should this committee, in the 
future--I understand this courthouse has its $400 million 
dangling out there for a decade--but, in the future, given what 
we are going through here in the Congress and that no one sees 
that there will be many changes in it--in fact, the 
supercommittee has been challenged to go two and three times 
what they are aiming for--why should this subcommittee 
authorize and why should the appropriators appropriate money 
for anything except centralized sharing of the same kind we do 
in the Senate and the Congress of the United States?
    Mr. Peck. Ms. Norton, I certainly agree that we should take 
another look at the sharing policy. As I have said, I have had 
this conversation a number of times with the Judicial 
Conference's Space and Facilities Committee, and we will talk 
about it again.
    I think, again, that, whether or not we can do it--and I 
think it is fair for the committee to ask us, should we come 
forward with another proposal for a new courthouse, to ask 
whether, given the caseload in that area, the number of judges, 
the way the facilities rate, whether we can share more than 
they currently are, I think it is certainly a fair question and 
I think that it is something we all ought to be talking about 
as we go forward. I certainly do agree.
    Mr. Goldstein. Ms. Norton, I would add just one item to 
what Mr. Peck said. I think it is important to note that the 
information that the judiciary presented, all of the court 
usage data they developed, shows that there was and our model 
proved that there is no correlation between caseload and 
courtroom usage across the United States based on the 
generalizable data that they used. There is no correlation.
    Ms. Norton. I believe we should ask the appropriators--and 
I know the appropriators in this area--to hold a hearing where 
they hear some of what you are saying so that we can match up 
what was authorized and we don't have people running back and 
saying, give us more money.
    Of course, I think this, Mr. Peck. I think that you are 
going to be hard-pressed to get anything but authorization and 
appropriation for centralized sharing.
    And I would like to ask you and Mr. Goldstein, in light of 
the meeting you will be having and the report you will be 
giving to the chairman within 30 days, to describe how 
centralized sharing could occur. You might even--if you doubt 
the data, you might even ask the judiciary, which apparently 
has had its way at the expense of the taxpayers, whether or not 
they would be willing to do a pilot project on centralized 
sharing in realtime.
    We are asking people in realtime--we have got 45 million 
people on food stamps. I have been on the ``challenge diet,'' 
the ``food stamp diet.'' Glad I am off of it now for a week. I 
can tell you that nobody can live on the food stamp diet. 
According to the data, it lasts for about 2\1/2\ weeks. So I 
think I know what people did. I think they went to the kitchens 
that give out food for the rest of the time.
    That is what we are confronting here when we decide where 
the money should go. And nobody is going to go home and say 
that everybody in the United States ought to be sharing except 
active judges, and that the GSA and the active judges are 
unwilling even to do a pilot project on real-time centralized 
sharing.
    Mr. Peck. Ms. Norton, I will talk to the judiciary about 
it.
    And I want to say this. I could not agree more. This is an 
unbelievably constrained budget time. Every dollar we spend on 
our inventory should be subject to scrutiny. We need to think 
about it in ways different, perhaps, than we have thought about 
it before. And we will certainly cooperate with you in taking a 
look at that.
    May I make one final comment, Mr. Chairman? I do want to 
note this, just because if I can, sort of, take us from this 
topic to the broader one of the health of the Federal Building 
Fund, you noted in your opening statement that the Federal 
Building Fund is empty and we don't have money to spend on 
projects.
    The Federal Building Fund is actually not empty. It is 
working the way it is supposed to, which is that we are 
collecting rents from Federal agencies and managing the 
inventory well enough that, at the end of the year--I don't 
have my final numbers for fiscal 2011 yet, but we will probably 
end up with about $1.5 billion in money that we proposed and 
that should be spent mostly on renovating and capital 
maintenance on our Federal buildings; we are just not being 
allowed to spend it. And I understand why, and so I am not--
some other time, I will make my plea for getting the right to 
spend it.
    But I just want you to know that the building fund is, in 
fact, accumulating the money it is supposed to for capital 
investment. We just can't get the approval to spend it on, I 
think, necessary projects. And I am not just talking about 
court projects; I am talking about something that Ms. Norton 
and I talk about a lot, moving forward on the consolidation of 
Homeland Security at St. Elizabeth's, which we are not being 
allowed to spend our money on even though we have it.
    Ms. Norton. This is a point well taken. And, as you know, 
we have been working very hard on it.
    I do note for the record that the judiciary actually 
asked--this takes a lot of gall--to be exempted from the 
Federal Building Fund at one point. Of course, the committee 
had to laugh in their faces. They are the greatest user of the 
Federal Building Fund, and they actually asked. That was their 
sense of entitlement, that every other Federal agency ought 
to--but the judiciary should not.
    And one of the reasons we are impatient with the courts is 
they have had an attitude toward taxpayers' money that we have 
not seen any Federal agency have the temerity to have, not the 
Defense Department, not--and we are just not going to do it 
anymore.
    Mr. Peck. Ms. Norton, may I say, and Mr. Chairman, to the 
extent you hear me--and you do--hear me defending the courts, I 
will say that there is new management in the Administrative 
Office of the Courts. And there is a different, more open 
attitude to discussing these issues than there was when I was 
at GSA the last time. And that is why I give them credit for--
--
    Ms. Norton. We will understand that when the judges 
understand that we are not going to authorize courts where 
active judges refuse to share courtrooms.
    Mr. Chairman, could I introduce to the record a letter from 
Mr. Serrano? He asked me----
    Mr. Denham. Without objection.
    [The letter follows:]
    [GRAPHIC] [TIFF OMITTED] 71099.028
    
    [GRAPHIC] [TIFF OMITTED] 71099.029
    
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Denham. I am looking at the prospectus now that--the 
committee resolution that came before Chairman Shuster at the 
time. It says ``continued use of all existing courtrooms in the 
Roybal Federal Building for judicial proceedings.''
    We do not have all existing courtrooms utilized today. You 
have also testified under oath today that you do not plan on 
fully utilizing all of the courtrooms once this building is 
done.
    Mr. Peck. Say it again, sir? I don't understand the 
question.
    Mr. Denham. You testified that the Roybal Building will not 
be 100 percent utilized, will not be fully utilized, once this 
new courthouse is built.
    Mr. Peck. I hope I didn't say that. But what I said was----
    Mr. Denham. Well, let me ask, do you expect the Roybal 
Building to be 100 percent utilized once this new courthouse is 
built?
    Mr. Peck. I certainly do, yes, sir.
    Mr. Denham. Is it 100 percent utilized today?
    Mr. Peck. I----
    Mr. Denham. The answer is, no, it is not 100 percent 
utilized.
    Mr. Peck. As far as----
    Mr. Denham. You were just there. He was just there. I am 
going to be there next week with Ms. Brown. It is not 100 
percent utilized. You are not sticking to the resolution that 
came before us in the first place.
    Mr. Peck. Mr. Chairman----
    Mr. Denham. Let me ask again, once this courthouse is done, 
the new courthouse is fully completed, will you have 100 
percent utilization in the Roybal Building?
    Mr. Peck. Mr. Chairman, we will have a building--I believe 
our plan is to have a building that is fully utilized, by which 
I mean that every space in the building will be assigned. And 
we may have to do some renovation to get there, but, by the 
time we finish this project, it will be a fully utilized 
billing.
    Mr. Denham. So you will have to do renovations to the 
Roybal Building?
    Mr. Peck. At some point we need to do renovations to the 
Roybal Building for lots of reasons----
    Mr. Denham. Part of this $365 million?
    Mr. Peck. No, sir.
    Mr. Denham. So the scope of this project has not only 
changed that you are going to use--you are going to get 40 
percent less square footage than what was----
    Mr. Peck. No----
    Mr. Denham [continuing]. Originally proposed to this 
committee, but you are also going to have to come back to this 
committee and ask for more money for the Roybal renovation.
    Mr. Peck. Mr. Chairman, when we proposed 1 million square 
feet, which was, I think, 7 years ago, you know, there has 
been--even though the construction market is now soft, there 
was a period of significant inflation. And we are still--we 
could not build the same size building for this amount of money 
as we did then.
    But we are providing for the new courthouse that was the 
basis for the proposal in 2004 and, indeed, in 2000. We are 
providing a building for the U.S. District Court. That was the 
proposal, and that is what we are proposing to build.
    There are other things that are going to have to be done to 
make this a--as in other courthouse projects that we have 
proposed, Mr. Chairman, we propose the work we are doing for 
the U.S. District Court and sometimes for magistrate and 
bankruptcy as well, but we often have follow-on projects to 
make the rest of the Federal inventory work.
    Mr. Denham. The project that was approved by this committee 
says ``continued use of all existing courtrooms in the Roybal 
Federal Building for judicial proceedings.''
    Mr. Peck. That was the proposal at that time, yes, sir.
    Mr. Denham. Yes. And you are changing that proposal. The 
scope of the project has changed. We are going to get 40 
percent less courtroom space, and you are going to go over the 
budget that you originally came to this committee for.
    Mr. Peck. No, we are at the same budget that we came to the 
committee for. As I said, we are at $365 million.
    Mr. Denham. $365 million, and I am also looking at the 
prospectus that came before this committee in 2008 asking for 
$700 million. And under that $700 million, you have $50 million 
that you would need to renovate Roybal.
    Mr. Peck. Mr. Chairman, that----
    Mr. Denham. So if you have $50 million that you are going 
to spend to meet the original prospectus, which says 
``continued use of all existing courtrooms in the Roybal 
Federal Building,'' under the same prospectus you need an 
additional $50 million that you don't have in that $365 
million. That is definitely over the 10 percent that you need 
to finish the prospectus.
    Mr. Peck. Mr. Chairman----
    Mr. Denham. So if you are going beyond what the original 
prospectus said in 2000, where are you going to come up with 
the money and when are you coming back to this committee?
    Mr. Peck. Mr. Chairman, the prospectus, the 2008 
prospectus, was, as I understand it, dead on arrival. It was 
never approved.
    If you are talking about the 2000--there was a 2000 
prospectus, and I believe--give me a moment--there was another 
prospectus in 2004.
    Mr. Denham. Well, it sounds like you are trying to confuse 
everybody here.
    Mr. Peck. No, sir, I am not. This is a pretty complex, 
confusing issue.
    Mr. Denham. OK, so you came to this committee in 2008 with 
this new prospectus.
    Mr. Peck. Sir, I did not.
    Mr. Denham. And under this prospectus----
    Mr. Peck. Sir, GSA, under a previous administration, came 
up with a proposal. This is not our proposal.
    Mr. Denham. Do you refute the numbers in this prospectus on 
what the previous administration came up with?
    Mr. Peck. Yes, sir. I mean, I am not refuting it; I am just 
saying that that is not our proposal anymore. That is----
    Mr. Denham. OK. The proposal that you are going by right 
now is the 2000 prospectus, yes or no?
    Mr. Peck. I believe the prospectus we are going on is the 
prospectus approved in 2004.
    Mr. Denham. Perfect. The 2004 prospectus says ``continued 
use of all existing courtrooms in the Roybal Federal Building 
for judicial proceedings.'' Are you going to have 100 percent 
utilization in the Roybal Building?
    Mr. Peck. We will have----
    Mr. Denham. Yes or no?
    Mr. Peck. As I said, yes, sir, when this is over, there 
also will be 100 percent utilization of the space in the Roybal 
Building.
    Mr. Denham. OK. So, when this is over. Which means that you 
have to renovate the Roybal Building when this is over, 
correct?
    Mr. Peck. Yes, sir. And we will be back----
    Mr. Denham. As part of the original prospectus. So you are 
saying you are going to come back at some point and ask for 
more money to make sure that you can continue to finalize the 
prospectus.
    Mr. Peck. We will be back for an authorization to do the 
work in the Roybal, but not----
    Mr. Denham. It is the same prospectus.
    Mr. Peck [continuing]. Not another prospectus to do the 
courthouse, no, sir. But we will--yes, sir, for the Roybal 
work, we will have to come back for a new prospectus.
    Mr. Denham. So you are not only changing the scope but you 
are changing the cost of the current prospectus.
    Mr. Peck. No, sir, because the----
    Mr. Denham. The current prospectus has both buildings in 
there. And, again, it says ``continued use of all existing 
courtrooms in the Roybal Federal Building.'' If you have to use 
all existing courtrooms in the Roybal Federal Building, you 
need $50 million to complete the entire prospectus, which means 
you that need new authorization from this committee.
    Mr. Peck. No. Mr. Chairman, we have an appropriation to 
build a new courthouse in Los Angeles, and we are going to 
build a new courthouse in Los Angeles.
    The work that needs to be done in the Roybal is not a part 
of the new courthouse project any more than we will have to go 
back and take a look at what we do with the space that is left 
over in the North Spring Street Courthouse.
    Mr. Denham. Yeah, the only problem is the North Spring 
Street Courthouse building is not in this prospectus. The 
Roybal Building is. And, again, it says ``continued use of all 
existing courtrooms in the Roybal Federal Building for judicial 
proceedings'' not only in the 2000 prospectus, but in the 2004 
prospectus. No matter which prospectus you go to, you have to 
have 100 percent utilization of the Roybal Building.
    So if it is going to cost you $50 million to renovate it to 
get 100 percent usage, which--we don't have 100 percent usage 
today--then you have to come back before this committee to get 
a new authorization for the $50 million to complete the 
project.
    Mr. Peck. Mr. Chairman, as I said, we will be back for an 
authorization to do the work in the Roybal Building. That is 
correct.
    Mr. Denham. It was included in the original prospectus----
    Mr. Peck. Mr. Chairman----
    Mr. Denham [continuing]. And in the 2004 prospectus to make 
sure that we would never end up in this position. I mean, I 
think that it is egregious that we would do a bait and switch 
and change the complete scope of this project that is going to 
give the taxpayers 40 percent less square footage than what the 
original prospectus said. But I think that it is even more 
egregious to say that we are going to just ignore the 
prospectus and have to come back at a later date, after the 
taxpayers are on the hook for the $365 million, and have to 
come up with an additional $50 million to complete the project.
    Mr. Peck. Mr. Chairman, the language that was in both the 
2000 and the 2004 prospectuses--the 2000 was approved by Mr. 
Shuster and the 2004 by Mr. Young--said that we should design 
for and configure for maximum utilization of courtroom-sharing 
model for the courts, ensuring to the maximum extent 
practicable continued use of all the existing courtrooms in the 
Roybal Federal Building.
    So that is our plan, to use to the maximum extent 
practicable the existing courtrooms in the Roybal Building. As 
I said, we are going to have some 24 courtrooms in the new 
building and 25 courtrooms in the Roybal Building. I mean, we 
have taken that into account.
    The fact that at some later date we are going to have to 
renovate so that we can provide additional chambers is really a 
separate project. And this is the way we have done this before, 
to my knowledge.
    Mr. Denham. It is not a separate project. It is the same 
prospectus. And in this committee, when it authorized the use 
of funds, said ``continued use of all existing courtrooms in 
the Roybal Federal Building for judicial proceedings.'' You are 
changing not only the scope of the project, but you are 
changing the cost of the project.
    Mr. Peck. Mr. Chairman, the prospectuses that were 
submitted in 2000 and 2004, I will go back and check, and I 
will get back to you for the record, but I believe that those 
prospectuses also contemplated additional work being done on 
the Roybal Building in a separate project.
    Mr. Denham. Well, you won't have to go back and check. We 
will make sure you have a copy of this once again for your 
records. But this is what this committee had approved.
    Ms. Norton?
    Ms. Norton. I just want to say that we have been following 
the prospectuses as you outline, and I associate myself with 
your comments. Thank you, Mr. Chairman.
    Mr. Denham. Mr. Peck, to say that we have a disagreement on 
the usage of this courthouse would be an understatement. I am 
certainly disappointed that--you and I have been able to work 
very, very close on the Civilian Property Realignment Act and 
look at correcting a lot of the challenges that we have with 
our entire inventory. There is so much that is left off. Of the 
14,000 excess properties that we have listed today, not only 
can we not sell the 14,000 that we don't use, but we have these 
courthouses that are amazing courthouses, historic courthouses, 
just like the Old Post Office, that we could not only create 
hundreds of thousands of jobs in construction and renovation, 
but revitalize communities and create hundreds of thousands of 
long-term jobs, just like what we are proposing in the Old Post 
Office.
    I am disappointed that it appears that you are just trying 
to get around this committee, whether it is the prospectus that 
was passed in 2000, the prospectus in 2004, or the prospectus 
that was presented to this committee in 2008 but never acted 
upon, all of which suggest that--not suggest, they mandate 
continued use of all existing courtrooms in the Roybal Federal 
Building as the same prospectus.
    You have clearly stated that you are going to spend the 
$365 million on changing the scope of this project, will result 
in 40 percent less square footage than the original prospectus. 
And then, at some later date, you are going to come back, after 
ignoring the resolution and prospectus that passed out of this 
committee, while ignoring the language in that, then come back 
at a later date and ask for an additional $50-million-plus to 
continue to fix the Roybal Courthouse.
    Mr. Peck. Mr. Chairman, there was an appropriation made in 
2004--appropriations made in 2004 and 2005 and, I believe, in 
2001 for site and design. An appropriation to a Federal agency 
is a directive to do a project. We have the opportunity to 
take--we have sat on that money for a long time, and we are not 
supposed to do that. We are supposed to do what the Congress 
tells us to spend on. We don't have to spend every money; our 
goal is to bring in projects for less. But, in essence, we have 
not followed a different direction of the Congress to build 
this project. We have an opportunity to do it now and to create 
thousands of construction jobs in Los Angeles.
    Moreover, we have been told in committee report language, 
at least from the Appropriations Committees for the past 
several years, that we were to get on with it, to figure out 
what we could build within the amount of money we have, and 
move on with the project. And that is what we have done.
    GAO in 2008 took a look at what was going on and said GSA 
and the courts were not agreed on this thing at all and weren't 
getting anywhere and needed to figure out a way to get this 
done within the budget. And, you know, we followed that 
mandate, and that is why we are here today, to try present to 
you, in your oversight capacity, what we are doing under that 
appropriation.
    And you are absolutely right, we have been very much 
aligned on what we are doing. And I believe that there is a 
good story here about finally taking a project that has been 
sitting here, that is needed by the courts, and that will help 
us align the Federal office inventory in the Los Angeles area 
in a better way than it is today.
    I am sorry that we disagree about how it should move 
forward. I truly am.
    Mr. Denham. You have drastically changed the scope of this 
project from a 1.1-million-square-foot project. Now the 
taxpayers are going to receive 40 percent less than that. It is 
not your prerogative to change projects and bait and switch 
this Congress into getting something that it--you can't go out 
there and do gold-lined walls or change a project so 
significantly without coming back for Congress' approval.
    Nor can you go out and change a prospectus and just ignore 
the fact that the prospectus that was passed out of this 
committee says ``continued use of all existing courtrooms in 
the Roybal Federal Building for judicial proceedings'' and just 
ignore the language in there.
    Mr. Peck. Mr. Chairman----
    Mr. Denham. You, in your own testimony, said that you would 
have to come back to this committee for the $50 million that is 
in your prospectus to continue to renovate that building. This 
committee expected, clearly, in writing, expected that the $400 
million that was allocated was going to have two 100 percent 
fully utilized courtrooms. The judges aren't there, the need 
isn't there. And in the current building you have vacant space, 
which I am looking forward to seeing.
    I hope that they do their due diligence over the weekend 
and pull out all of the old furniture that is in these vacant 
courtrooms and actually find some courts to actually see there. 
But right now, from what I am hearing from my colleagues, that 
does not exist. So you have a partially empty courtroom today, 
you are going to build 60 percent of the courtroom that you 
said you were going to build when you came before Congress, and 
the taxpayers are going to get left holding the bag of one and 
a half empty spaces.
    My position stands very clear, that this is something that 
is not only a waste but something that we need to be looking at 
expediting the sale of this Spring Street Building before we 
end up in another situation like Miami or New York or many 
other areas around the Nation. I will look forward to visiting 
some of those courtrooms, as well.
    But we need to be doing more with less, not continuing to 
go on this spending spree that has gone on in the past. We need 
to change our ways. And that is coming, not only with the CPRA 
bill that is before Congress and before the supercommittee 
today, but we will be further looking at all of these 
courthouses.
    Mr. Peck, Ranking Member Norton brings up a very good 
question. We already have a prospectus here in front of us from 
2008 that already has GSA's numbers in it. With the current 
scope of the project changing as much as it has, with the 
current prospectus out there and the very clear language in 
this, this committee would request that a new prospectus come 
back from GSA, outlining not only the use of the Roybal 
Building but the expense as well.
    Since you already understand that the renovations are going 
to go outside of this current prospectus, we would request that 
you bring that new prospectus in front of us immediately.
    Mr. Peck. I understand. I will respond to you with--after I 
consult, I will certainly respond to you, Mr. Chairman.
    Mr. Denham. Thank you. You have a lot of requests to bring 
back to us. We also look forward to your meeting with Mr. 
Goldstein. But this prospectus we would expect in a timely 
manner, especially since you have all of the information 
already done from the 2008 prospectus.
    With that, I would like to thank each of you for your 
testimony and comments today. Certainly they have been helpful 
and enlightening in some concerns.
    I would ask unanimous consent that the record of today's 
hearing remain open until such time as our witnesses have 
provided answers to any questions that may be submitted to them 
in writing, and unanimous consent that the record remain open 
for 15 days for any additional comments and information 
submitted by Members or witnesses to be included in the record 
of today's hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony.
    And if no other Members have anything to add, the 
subcommittee stands adjourned.
    [Whereupon, at 12:57 p.m., the subcommittee was adjourned.]

</pre></body></html>
